<html>
<title> - FISCAL YEAR 2005 BUDGET FOR THE NATIONAL PARK SERVICE AND BUREAU OF LAND MANAGEMENT AND ONGOING EFFORTS TO REDUCE MAINTENANCE BACKLOGS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
 FISCAL YEAR 2005 BUDGET FOR THE NATIONAL PARK SERVICE AND BUREAU OF 
  LAND MANAGEMENT AND ONGOING EFFORTS TO REDUCE MAINTENANCE BACKLOGS

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                      Thursday, February 26, 2004

                               __________

                           Serial No. 108-86

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
92-178                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officio
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, February 26, 2004......................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................    33
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     5
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     2
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia, Prepared statement of..........     6
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana...........................................    29
        Prepared statement of....................................    44
    Udall, Hon. Mark, a Representative in Congress from the State 
      of Colorado................................................    38

Statement of Witnesses:
    Clarke, Kathleen, Director, Bureau of Land Management, U.S. 
      Department of the Interior, Washington, D.C................    17
        Prepared statement of....................................    19
    Mainella, Fran, Director, National Park Service, U.S. 
      Department of the Interior, Washington, D.C................     7
        Prepared statement of....................................    12



OVERSIGHT HEARING ON THE FISCAL YEAR 2005 BUDGET FOR THE NATIONAL PARK 
  SERVICE AND BUREAU OF LAND MANAGEMENT AND ONGOING EFFORTS TO REDUCE 
                          MAINTENANCE BACKLOGS

                              ----------                              


                      Thursday, February 26, 2004

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
Room 1334, Longworth House Office Building, Hon. George P. 
Radanovich [Chairman of the Subcommittee] presiding.
    Present: Representatives Radanovich, Souder, Bishop, 
Christensen, Kind, Mark Udall, Grijalva, and Bordallo.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good morning and welcome to the 
Subcommittee on National Parks, Recreation, and Public Lands 
hearing. Frankly, this is the first Subcommittee hearing of 
2004, so I want to welcome everybody here today.
    I want to welcome back my colleague and friend, the Ranking 
Member from the Virgin Islands, Donna Christensen, with whom I 
hope to build upon a bipartisan relationship from the previous 
year. I also welcome back all of my colleagues on the 
Subcommittee, even those who aren't here yet.
    [Laughter.]
    Mr. Radanovich. This morning, the Subcommittee on National 
Parks, Recreation, and Public Lands will receive testimony from 
the Director of the National Park Service, Fran Mainella. Good 
morning, Fran.
    Ms. Mainella. Good morning, Mr. Chairman.
    Mr. Radanovich. And also the Director of the Bureau of Land 
Management, Kathleen Clarke. Kathleen, welcome to the 
Subcommittee.
    Ms. Clarke. Thank you.
    Mr. Radanovich. Good morning to you, too. This is, I think, 
Kathleen's first time at the Subcommittee, so--
    Ms. Clarke. It is. Thank you.
    Mr. Radanovich. You know I have a reputation for being very 
bruising to the people that are here testifying, and I hope to 
continue that today.
    [Laughter.]
    Ms. Clarke. I look forward to that.
    Mr. Radanovich. Director Mainella and Director Clarke will 
present testimony on their respective Fiscal Year 2005 budgets 
as well as their agencies' efforts to reduce maintenance 
backlogs.
    As this is the first Subcommittee hearing on the 
Presidential Budget since the 2004, or excuse me, the 104th 
Congress, I imagine that Members will have a lot of questions.
    Mr. Radanovich. As members of the Subcommittee are well 
aware, reducing the maintenance backlog within the Department 
has been a priority for this Administration. For the Park 
Service, the Subcommittee is very interested in the status of 
the condition assessment, which will be addressed in its July 
2003 Partnering and Managing for Excellence Report to the 
President and how it will be used.
    For the Bureau of Land Management, the Subcommittee is 
interested as to why the Fiscal Year 2005 budget has increased 
the land acquisition account by $5.6 million when the agency 
already manages 264 million acres of land.
    With that, I want to turn to my Ranking Member, Mrs. 
Christensen, Donna, for any statements, or opening statements, 
frankly, that you may have.
    [The prepared statement of Mr. Radanovich follows:]

        Statement of The Honorable George Radanovich, Chairman, 
      Subcommittee on National Parks, Recreation and Public Lands

    Good morning. The hearing will come to order.
    As this is the first Subcommittee hearing of 2004, I would like to 
welcome back my colleague and friend, the Ranking Member from the 
Virgin Islands, Mrs. Christensen, with whom I hope to build upon the 
bipartisan relationship of the previous year. I also welcome back all 
my colleagues on the Subcommittee.
    This morning the Subcommittee on National Parks, Recreation, and 
Public Lands will receive testimony from the Director of the National 
Park Service, Fran Mainella--Good morning Fran--and the Director of the 
Bureau of Land Management--Kathleen Clark--Good morning Kathleen, and 
welcome. I believe this is your first time before the Subcommittee.
    Director Mainella and Director Clarke will present testimony on 
their respective Fiscal Year 2005 Budgets, as well as their agencies' 
efforts to reduce maintenance backlogs. As this is the first 
Subcommittee hearing on a Presidential Budget since the 104th Congress, 
I imagine that Members will have a lot of questions.
    As Members of the Subcommittee are well aware, reducing the 
maintenance backlog within the Department has been a priority for this 
Administration. For the Park Service, the Subcommittee is very 
interested in the status of the condition assessment, which was 
addressed in its July 2003 Partnering and Managing for Excellence 
Report to the President, and how it will be used. For the BLM, the 
Subcommittee is interested as to why the FY'05 Budget has increased the 
land acquisition account by $5.6 million when the agency already 
manages 264 million acres of land.
    I now turn to the Ranking Member, Mrs. Christensen for any opening 
statement she may have.
                                 ______
                                 

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman, and I look 
forward to continuing the great relationship we have had on 
this Subcommittee, as well.
    I want to join you also in welcoming our distinguished 
witnesses, Director Mainella and Director Clarke, and look 
forward to their testimony.
    I want to particularly take this opportunity to thank 
Director Mainella for her help with the Virgin Islands parks 
and to assure that what we are here to do today is to ensure 
that both of you have the resources to continue the good work 
that needs to be done on behalf of parks and our other public 
lands.
    As they have already told by the National Recreation and 
Parks Association this morning, though, the budget that the 
President sent is really not to be commended, the one for 2005. 
The budget request for the National Park Service provides only 
a modest increase, while the BLM is cut. These budget requests 
are in keeping with previous funding levels which have already 
proved inadequate to meet the needs of our national parks and 
public lands. The proposed funding levels fail to keep pace 
with basic cost increases, such as inflation and cost-of-living 
adjustments for Federal employees, much less provide for any 
innovative resource protection or land management initiatives.
    What is worse, as we look at that budget, several of the 
Administration's claims regarding the budget rely on 
questionable accounting. The Land and Water Conservation Fund 
is not fully funded in this budget and the Administration is 
only able to claim full funding by a group of a wide variety of 
unauthorized programs under the LWCF umbrella. This failure to 
fully fund LWCF translates into insufficient land acquisition 
programs, both for BLM and the National Park Service.
    The Administration's claims regarding the NPS maintenance 
backlog are also troubling. President Bush campaigned on a 
pledge to erase what he repeatedly asserted was the National 
Park Service's $4.9 billion backlog in 5 years. According to 
the Administration, they have now spent $3.9 billion on the 
backlog, including Fiscal Year 2005 funds. If we are to believe 
the Administration, the maintenance backlog then within the 
National Park System should be down to about $1 billion and 
erased by next year, but as we discussed, this is really not 
the case.
    The funding levels this Administration has provided 
represent only incremental increases over the amounts allocated 
by the previous Administration. As a result, the National Park 
Service's own facilities condition assessments show that the 
dollar amount of the maintenance backlog is actually greater 
than when President Bush took office, and this is a serious 
problem.
    Last evening, we heard about a very exciting partnership 
between the National Park Service and the Travel and Tourism 
Industry of America, but unless we can take care of our 
maintenance backlog, our participation--the expectations of 
that partnership will not be able to be fully realized. So it 
is really important that we address that backlog, and to do 
that, we really need to take a serious and honest look at it 
and assess what our needs are and look for ways to fund, fully 
fund, that program.
    Other programs within the National Park Service budget are 
also shortchanged. The National Heritage Area Program, which is 
very important to me since I am trying to do one in my 
district, is cut by 80 percent despite being an excellent 
example of cooperation and consultation in the name of 
conservation. The Urban Parks and Recovery Program, which 
offers matching grants to cities to support green space and 
recreational opportunities, is again zero-funded. We have some 
concerns also about how they are funded in the territories.
    Further, I am disappointed that the Administration is 
attempting to zero out the funding for Historically Black 
Colleges and Universities, something that we worked very hard 
to do in this Subcommittee and at the Committee last year, and 
so I am very concerned about the zero funding for that program 
this year.
    The budget situation for the BLM is even worse. While the 
list of programs receiving modest increases is short, the list 
of programs being cut is long and strikes at the very heart of 
the BLM mission. The Administration proposes cuts in range 
management, soil, water, and air quality management, recreation 
management, wilderness management, and threatened and 
endangered species.
    Since this oversight hearing is supposed to emphasize the 
maintenance backlog, it is interesting to note that the 
Administration is proposing to cut funding for BLM maintenance 
programs, including annual and deferred maintenance, 
infrastructure improvement, and maintenance operations. More 
than interesting, it is troubling. We realize that many of 
these decisions may have been made over the objections of 
today's witnesses and we look forward to their insights into 
what the funding priorities for these two agencies should be.
    I finally want to thank and commend Chairman Radanovich for 
holding this hearing. In our view, a budget oversight hearing 
should be the first item on the Subcommittee's agenda as a way 
to set parameters for consideration of the many legislative 
proposals that will come before us this year and I look forward 
to working with you to try to address some of the issues I 
raised in my opening statement.
    Mr. Radanovich. Thank you, Donna. I appreciate that.
    Are there any other opening statements anybody wishes to 
make?
    Ms. Bordallo. Mr. Chairman, I do not have any opening 
remarks, but I, too, would like to welcome our witnesses today, 
in particular Director Mainella, and I look forward to hearing 
about the proposed budget. Thank you.
    Mr. Radanovich. Thank you, Ms. Bordallo.
    Mr. Grijalva?

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much. No specific opening 
statement, some questions later and I am also submitting 
statements and further questions for the record.
    Mr. Radanovich. Not a problem. We will get going here then, 
and thank you.
    [The prepared statement of Mr. Grijalva follows:]

   Statement of The Honorable Raul M. Grijalva, a Representative in 
                   Congress from the State of Arizona

    Organ Pipe National Monument was listed this year in the top ten 
most endangered parks and monuments in the country by the National 
Parks Conservation Association. Among other problems, national border 
policy, and the traffic of border crossers and border patrol caused by 
that policy, has resulted in untold damage to the land. Recently, the 
Border Patrol has requested even more access to create additional roads 
and increase traffic on the monument, which only exacerbates the damage 
to natural resources.
    The Park Service is now constructing a vehicle barrier along the 
entire length of the Monument's border. I have serious doubts that this 
barrier will actually decrease overall traffic; indeed even the Park 
Service itself has stated that no barrier can completely stop border 
crossing. Vehicular traffic (as opposed to foot traffic that will not 
be halted by the barrier) will be pushed to other areas nearby, such as 
the Tohono O'odham Nation and the Cabeza Prieta National Wildlife 
Refuge, resulting in increased damage in those areas.
    The Park Service is paying for the vehicle barrier in Organ Pipe, 
to the tune of $7 million. This money will come from the Park's budget, 
taking away from other needed programs, instead of from the Department 
of Homeland Security as it should.
    Because our national border policy is forcing people into the 
desert, thereby increasing the need for law enforcement activities 
there, it is causing untold environmental damage. The Monument staff 
needs additional resources in order to pay for environmental 
restoration of the areas that have been damaged, and needs additional 
rangers to patrol the Monument.
    Our national border policy has created this problem, and therefore 
the Department of Homeland Security is the proper agency to fund these 
activities, including construction of any border security devices, and 
increased patrol personnel.
Grand Canyon National Park
    The Park Service is currently completing work on the Colorado River 
Management Plan which would seek to address management of the river, 
and the permitting for both private and commercial trips on the river. 
However, recently, I have been informed that the Park Service has been 
directed to prepare maps and information relating to a proposed 
wilderness area in Grand Canyon National Park that would exclude the 
river corridor from the designation, thus enabling the river 
concessionaires to continue using motorized craft on the river in 
perpetuity.
    I would like to see any consideration of eliminating the river as 
wilderness postponed until the completion of the management plan. The 
public process should be allowed to continue, as more than 50,000 
people have commented on the plan and are awaiting a result through the 
National Environmental Policy Act public review process.

             Statement on Bureau of Land Management Budget

    Late last year, the BLM announced plans to revise its regulations 
of the Federal Grazing Program. These regulations, like many Bush 
Administration proposals regarding the environment, will be a step 
backwards into the past.
Improvements
    I am troubled by the section of proposed regulations that would 
give permittees/lessees the right to own new developments, many 
constructed in part with public funds, on public lands. This proposal 
would bring back from the dead an old regulation that the Secretary of 
Interior abolished back in 1994. The abolished regulation formerly 
allowed ranchers to claim a private property ownership interest in 
improvements and developments on federal land where they graze their 
livestock.
    Right now, ranchers can receive compensation for improvements if 
they no longer are allowed to continue grazing for whatever reason, 
however, this is far different than actually having an ownership 
interest. Giving ranchers a private property right would have a 
chilling effect on federal land managers who are considering 
discontinuing grazing on a certain parcel, if they know they could be 
tied up in litigation for years over the ``taking'' of the private 
property rights in improvements.
    It seems to me and many others that this change would expose the 
BLM to continuous property rights disputes and could well hinder the 
agency from exercising control on grazing activities on public lands. 
This is why the regulation was abolished a decade ago and, contrary to 
the assertions made at that time, thousands of improvements have 
continued to be constructed on public lands.
Monitoring of environmental damage
    One of the most significant changes that the Bureau wants to make 
to the Grazing Regulations is the proposal to require long-term 
monitoring to document environmental damage, then to allow up to two 
years before the BLM must take corrective action on environmental 
damage, and finally allowing up to five years before some corrective 
actions to address that damage must be implemented. This means that 
officials could wait upwards of seven years before taking action on 
past or ongoing damage to lands, and on environmentally destructive 
practices.
Public participation
    The Administration is also seeking to eliminate public 
participation in such important decisions affecting public lands as 
grazing permit/lease renewals, issuance of new permits/leases, and 
permit/lease modifications. I am adamantly opposed to the elimination 
of public participation in these decisions.
    The Secretary of the Interior has made a point to say numerous 
times that the 4C's (consultation, cooperation, communication, all in 
the service of conservation) are of utmost important. However, when one 
looks at these regulatory changes, they appear to favor the 4C's for 
just a select few. It seems that the Department and the BLM are 
confused about what lands we are talking about here. These are public 
lands and I would stress the word public. They are to be managed for 
the public good not the private good.
                                 ______
                                 
    Mr. Radanovich. I also want to recognize Mr. Bruce Sheaffer 
and Mr. Larry Benna, who are here for support, not to testify 
but to support the various agencies that they represent, and 
also Ms. Sue Masica. Welcome to the Subcommittee.
    Mrs. Christensen. Mr. Chairman, I just wanted to submit the 
opening remarks of our Ranking Member on the Committee, 
Representative Nick Rahall, for the record.
    Mr. Radanovich. There being no objection, so ordered.
    [The prepared statement of Mr. Rahall follows:]

     Statement of The Honorable Nick J. Rahall, Ranking Democrat, 
                         Committee on Resources

    Mr. Chairman, the Bush Administration is in a bind. Year after year 
it sends budgets to Capitol Hill which gut resource protection programs 
and undermine our system of National Parks and Public Lands. And yet, 
while this position is wildly popular among the extractive industries, 
this level of disregard for our natural resource heritage does not sit 
well with the American people. So, in an attempt to destroy the 
environment while claiming to save it, the budget arrives festooned 
with flowery rhetoric designed to tell one story, while the actual 
numbers tell the truth.
    This comes as no surprise from an Administration which claims 
cutting trees makes them ``healthy'' and deficit spending is 
``conservative,'' but this attempt to fool the public into thinking 
this budget is adequate ultimately must fail.
    The Administration alleges that its budget fully funds the Land and 
Water Conservation Fund. This is simply not true. By law, only two 
programs, federal land acquisition and grants to states, are eligible 
to receive money from the Fund and each year $900 million is credited 
into the Fund. It does not require a degree from Yale to grasp that 
anything less than $900 million in expenditures for these two programs 
is not full funding of the LWCF.
    The Bush budget includes only $314 million, or about 35% of the 
authorized amount credited yearly for these two programs. President 
Bush may have thought that meeting 35% of his commitment to the Texas 
Air National Guard was sufficient but it is wholly insufficient as an 
investment in the protection of land, water and recreational resources 
in this country.
    Similarly, this budget claims to be keeping the President's 
campaign pledge to erase the National Park Service's maintenance 
backlog. It does not. The funding levels requested for deferred 
maintenance under President Bush have shown only incremental increases 
over the levels provided by the previous Administration and have never 
approached the levels promised during the campaign. Given these 
repeated shortfalls, the Administration is on track to fall more than 
$4 billion short of its $5 billion campaign pledge. This would explain 
why a recently completed, internal assessment of the condition of NPS 
facilities concluded that the backlog of deferred maintenance has 
actually increased during the Bush Administration. To persist in 
claiming that the promise to erase the backlog is being kept is 
nonsense.
    Our National Park system is at a crossroads. Fewer people are 
visiting the Parks. Many units have serious air and water quality 
issues, facilities are failing and wildlife populations are suffering. 
The Bush Administration's response to these challenges is to 
continually under fund our Parks, explore outsourcing our Park 
professionals, and consider further reductions in services. For the 
crown jewel of our National Park System, Yellowstone, the Bush plan 
includes increasing the strain on resources by forcing the Park to 
accommodate more snow machines than ever and to address wildlife 
management challenges by helping slaughter an American icon, the mighty 
bison.
    For public lands, the situation is no better. The Bush 
Administration's notion of ``multiple use'' of public lands seems 
limited to the idea that we should either drill them, mine them, or 
graze them. Under the current Administration's policies and budget 
priorities for the public lands, the BLM should more appropriately be 
called the Bureau of Livestock and Mining. The Administration seems 
bent on kowtowing to ranchers and going to the well for oil and gas 
operators.
    Over the past three years I have heard Interior Secretary Norton 
invoke her claim to public land management based on her 4 C's 
(``consultation, cooperation, and communication all in the service of 
conservation''). Those claims ring hollow if you are one of the many 
local governments or citizen organizations who happen to disagree with 
a Bush Administration policy or action, in which case you are either 
ignored or dismissed. It seems that her 4 C's apply only if you happen 
to agree with what the Administration is proposing to do. It is time 
for the Administration to release the grip that the commercial 
interests have on our public lands and return to management for the 
public good rather than the private sector bottom line.
    The Administration's efforts to short-change our National Parks and 
public lands have become painfully obvious. Vital spending categories 
such as Land and Water Conservation Fund Programs and the maintenance 
backlog are receiving just pennies on the dollar. While these choices 
are within the President's prerogative, this Administration should have 
the courage of its convictions and be straight with the American people 
regarding its blatantly irresponsible management practices. If our 
National Parks are not priorities, simply say so and move on. The 
American people are not fools and they will not long suffer being 
treated as if they are.
                                 ______
                                 
    Mr. Radanovich. Fran, we would like to begin with you, if 
you would like to begin your opening statement. Take 5 minutes 
or what you need and then we will begin with Ms. Clark's 
statement, as well.

STATEMENT OF FRAN P. MAINELLA, DIRECTOR, NATIONAL PARK SERVICE, 
U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, D.C.; ACCOMPANIED 
BY LARRY BENNA, SUE MASICA, AND BRUCE SHEAFFER, U.S. DEPARTMENT 
                        OF THE INTERIOR

    Ms. Mainella. Thank you, Mr. Chairman. I am really pleased 
to be able to be here to share with you our Fiscal Year 2005 
budget request and our efforts to address the maintenance 
backlog. I would request that my full statement, though, be 
made part of the record as I am going to try to summarize in my 
comments this morning.
    The 2005 budget request has $2.4 billion as our request. 
That is a $100 million increase over the 2004 level, which is 
about a 5-percent increase. This budget does demonstrate a 
strong commitment to sustaining the National Park System. Some 
of the areas we emphasize, though, are on the maintenance 
backlog, strengthening our law enforcement and improving 
visitor safety and visitor experiences, also enhancing the 
resource management and expanding partnership and volunteer 
activities.
    I do want to mention, though, complementing our budget 
request is $310 million that will be found in the Department of 
Transportation's budget, which is dealing with our roads, and 
that is a very important part of our needs, particularly under 
maintenance and dealing with the maintenance of our parks.
    Some areas I would like to particularly highlight that you 
will find within our budget. One is resource protection, and I 
think many of you are familiar with our Natural Resource 
Challenge, and we have requested a $4.6 million increase in 
that Natural Resource Challenge. I know it helps with water 
quality issues and invasive species and other things of that 
nature, so we are very pleased about that.
    Also, something that is new that we always are interested 
in, not only in natural resources but cultural resources. 
Delegate Christensen, I know, is very familiar with the 
importance of the cultural resource aspects, and in this budget 
is a $10 million request for a new program called Preserve 
America, which reaches out to communities that preserve 
historic places and trying to involve, as Delegate Christensen 
spoke to earlier this morning, tourism, particularly heritage 
tourism initiatives. That is something that we are very excited 
about and this is a program that Mrs. Bush has really stepped 
forward to also help move forward.
    Law enforcement is another area of focus, and I know that 
this is one that I think affects all areas of our country, but 
we do have an increase of $12.4 million for law enforcement. 
This is to respond to a lot of the security issues that are out 
there, as well as just how life is a bit different today than 
it has been since September 11.
    Just a reminder, we have already added and spent almost $41 
million since September 11, 2001, for Park Police, national 
icons, border parks, and other law enforcement efforts. So we 
have been very committed, but we are further enhancing that 
commitment in this budget.
    As you all know, partnerships have been very important, not 
only to the President and the Secretary, but I think that this 
is part of what our national parks are known for, going all the 
way back to Stephen Mather in 1916. We are further enhancing 
that effort through requesting $21 million for Cooperative 
Conservation Initiatives. If you remember, these are the 
challenge cost share programs. We work with our friends' 
groups, work with others. So it is a matching program and it 
does do great leverage.
    Also, we have $94 million for the Land and Water 
Conservation Stateside Program, which is basically the amount 
passed last year by Congress. These funds, as you know, for 
both these partnership programs are ones that leverage dollars 
and we think that these are important ways to go forth, 
particularly as the economy is still more difficult and we need 
to stretch our dollars as much as possible.
    Another way that we think is leveraged and stretching our 
dollars is through an increase in our budget working with 
volunteers and also working with other partners. So there is 
$850,000 in our budget request for that effort, because again, 
those leverage. Basically, for every dollar we spend, we 
usually get at least four back on any of those efforts dealing 
with volunteers or partnerships.
    Another area that I think all of us are getting even more 
familiar with than ever before is the importance of park 
operations. Mr. Chairman, I think you know at Yosemite, we need 
to make sure we continue to move forward to make sure that our 
folks have enough money to have operations issues that take 
care of the everyday operations of our parks, and in that, in 
fact, this budget does have an increase of $22 million for base 
operations for parks. That touches 73 parks, one of which is 
Yosemite, with a $305,000 increase for everyday operations.
    These also, though, this everyday operations includes 
security, it includes just the general, the small maintenance, 
where you are painting things, doing small repairs, and also 
being able to help us out in an area that will help some of the 
new parks that are coming online, like Flight 93, also have 
funding, and we are excited about that.
    All this, the $22 million plus additional funding in park 
operations, make an increase of $77 million for operations. 
That is a 5-percent increase over 2004 and I think this is a 
good direction to be heading for us.
    The area that you particularly singled out that we speak to 
is our deferred maintenance backlog, and I think that what I 
want to mention to you, we have really made a lot of success 
here and we have moved forward very successfully.
    In this year's budget, we have $1.1 billion that is being 
requested, and I want to look over here. Jeff Taylor, our 
Congressional Affairs person, is going to be, what is it--
    Mr. Taylor. Vanna.
    Ms. Mainella. Vanna, thank you. I was trying to think of 
her name. Thank you.
    [Laughter.]
    Ms. Mainella.--Vanna White today to look at our chart. You 
can see that--
    Mr. Radanovich. Mr. Taylor, you are not Vanna White.
    [Laughter.]
    Ms. Mainella. You can see that we have nearly doubled since 
about 2002 our commitments in the efforts of addressing these 
investments for maintenance backlog, and so we feel like we are 
making a very focused commitment.
    Also, on the $4.9 billion that the President said he was 
going to be spending toward this backlog, which is what you see 
here, as Delegate Christensen mentioned, we are at $3.9 billion 
with the 2005 budget request, definitely on our way to spending 
the $4.9 billion that the President promised in the 5 years, 
which would be at the end of Fiscal Year 2006.
    The next chart, Miss Vanna, is to show what we are doing 
now that will not let us get in this hole again, and that is 
what is called preventive maintenance, or you will see it in 
your budget as cyclic maintenance. We have more than tripled 
what we are committing to making sure our parks don't fall into 
the hole again of not taking care of what we have. And, in 
fact, this budget goes all the way. We have a request of $65 
million to reoccur for our cyclic maintenance. We started in 
2002 with only $22 million. So we have tripled that effort, and 
that is a very important effort for us.
    Also, dealing with the maintenance backlog, believe it or 
not, and it was shocking to me to come in to find out that we 
have been in business for 87 years, the National Park System, 
and for the first time--when I got here, I realized we didn't 
even know what we had. We didn't know what facilities we 
actually had. So we have history being made in the sense that 
this is the first time ever that we actually have an inventory 
of our standard assets. We actually know what condition they 
are in and basically have a pretty good idea of what repairs 
need to be made.
    We have gone to a state-of-the-art facility maintenance 
system called Maximo, and this is one that has helped us now 
realize that what we need to do is move into, instead of a 
dollar issue, we need to get down into understanding we need to 
move so our facilities are in acceptable condition and we need 
to be grading ourselves on that.
    What we have developed, and this gets into a little more 
technical aspects, the grade is done through a Facility 
Condition Index, known as FCI, and that is how we are working 
to grade ourselves as we go forth through our efforts to 
improve our facilities from a poor condition when we were 
arriving to an acceptable condition, and that is what we are 
working for.
    Also, part of this that I want to stress is the fact that 
this is a management decision, as well. It is not just numbers. 
It is making the decision of how or what you do and where you 
put your priorities. So we are also, and have accomplished but 
we are further refining what is known as an API, which is our 
Asset Priority Index. So we are working on those.
    It is really easy to fall into--to have someone say, OK, 
what is the backlog? Hey, you have been working at this for all 
these years. What is the backlog? For those of us that have 
been working with this plus those of us, and I know there are 
quite a few here in the audience that have been in the field of 
park and recreation for a long time that could attest to the 
fact that there is always repairs. There are always things to 
be done. There is no one number that will capture it. It is 
instead--it is always evolving. It is not a static number or 
dollar figure.
    For every day, right while we are sitting here, we just 
heard there is snow down in North Carolina. So we are probably 
right now having Smokies and others having impacts, and that is 
going to add to our maintenance backlog as we go.
    Instead of using dollars and cents, we are now going into 
this grading system and making sure that we have visitors that 
will have a safe experience and the resources will be protected 
so we meet our mission.
    One of the things that we have started to do, you have 
heard the Secretary talk before about the four ``C''s dealing 
with cooperation and conservation. We are now talking about the 
four ``W''s. We want to say, what is the asset and its 
management priority, what condition is it in, what will it cost 
to improve the asset to an acceptable condition, and what are 
the long-term costs to maintain that asset, and that is that 
cyclic maintenance that we have been talking about.
    What the asset is or what the management priority is, as I 
said, for the first time, we actually have this inventory, and 
the industry standard assets that we have inventoried are the 
buildings, the paved and unpaved roads, the trails, the 
campgrounds, houses, water, and wastewater plants. And for the 
first time, we have a systematic system for all our parks minus 
four that I will mention in a moment that we have this 
information on.
    We know what condition--the next what--what condition it is 
in. For the first time, we have that. We have a uniform 
software system that lets us know that. The only four that we 
are still working on is Gateway, Golden Gate, Yellowstone, and 
the Appalachian Trail because of the asset-intensive parks that 
they are. They will be finished hopefully by the end of this 
fiscal year. We have what it costs to improve the asset to an 
acceptable condition, and I will explain that a little bit more 
in an example.
    Also, again what we mentioned about is what the long-term 
costs are to maintain that asset, how much it will cost, but 
also when we will need to make those investments or if we do 
those investments at all. Again, a management decision 
involving the API, which is the Asset Priority Index.
    Let me give you an example, because it is a lot of jargon 
that we have been working on because of the fact that it is 
science. It is a science that we have done. We have taken the 
best guess scenarios and gone to science.
    Use your house, for example. What we are doing in our 
management today that was not being done before is that we are 
knowing now what it takes to put your house in perfect 
condition. We are looking to be able to decide what priorities 
you do these things. We may not have all the money at one time 
to do all these.
    So, for example, you know that your roof has a problem in 
your house. You decide, though, that you really want to get 
your carpeting changed first because of the fact that this 
carpeting is, you know, you are really bothered by it and you 
say, oh, this roof, it will last a little bit longer. So you 
don't do the roof. You replace the carpeting. That turns out to 
not--if you had replaced the roof, it would have been maybe a 
$5,000 roof. After you do the carpeting and replace that, all 
of a sudden the roof really goes. Now you have a house that is 
a $50,000 problem. Not only is the carpeting messed up, but the 
ceilings, the electrical, and you have a lot of damage.
    We have gone into a management system that allows our 
superintendents to be able to make these management choices in 
a way that I think will be very beneficial to all of us. We 
know now that our trails and campgrounds, while not perfect, 
are in really acceptable condition. Also, we know that our 
wastewater treatment facilities, we have been improving on 
them. Yellowstone and others, we have just been working on, 
Everglades. They meet code, but still need some more upgrading 
and we are continuing to work on that. The area that is 
probably in the worst unacceptable condition are our roads, and 
that also is hopefully coming through through some of the 
transportation efforts that lay before us.
    We are able to now help our park managers, our 
superintendents to be able to decide, do we repair something, 
do we tear it down, or do we go on to replace it completely 
because it is not even serving the needs?
    Mr. Chairman, this Administration uses a scorecard a lot in 
the approach to our program management and accomplishments. 
Several years ago, when I arrived for sure, but much even 
before that, the National Park Service would have received a 
red light for its facility management systems. With the 
progress we have done so far over these last number of years 
under this President, this Administration, we have gone to a 
strong yellow. We are on a clear path to going to green.
    That concludes my comments, and thank you.
    Mr. Radanovich. Thank you very much, Director.
    [The prepared statement of Ms. Mainella follows:]

    Statement of Fran P. Mainella, Director, National Park Service, 
                    U.S. Department of the Interior

    Mr. Chairman, thank you for the opportunity to appear before your 
Subcommittee to discuss the Fiscal Year 2005 budget request for the 
National Park Service and the Service's efforts to address the deferred 
maintenance backlog in our National Parks.
FY 2005 Budget Request
    The FY 2005 budget request of about $2.4 billion would increase 
appropriated funding for the National Park Service by over $100 million 
above the FY 2004 level, or over four percent. This budget proposal 
demonstrates a strong commitment to sustaining the National Park 
System, with emphasis on reducing the maintenance backlog, 
strengthening law enforcement and improving visitor safety programs, 
enhancing resource management, and expanding partnership and volunteer 
activities.
    Along with the $2.4 billion provided through appropriations to the 
Department of the Interior, other sources of funding also support the 
National Park System. Under the President's proposed highway 
authorization bill, through the Federal Lands Highway Program the 
National Park Service is slated to receive $310 million for park roads. 
This funding is provided through the Department of Transportation 
appropriations bill. We also receive funding from recreational fees, 
concession fees, donations, and other non-appropriated sources. The 
transportation funding and non-appropriated revenues contribute 
significantly to addressing the deferred maintenance backlog. Those 
sources also enable the National Park Service to carry out many 
important park-related projects and activities that might otherwise not 
be possible.
    I want to briefly mention a few highlights of the FY 2005 budget 
request before delving more deeply into park maintenance issues.
    <bullet>  Resource Protection. Our budget proposes a $4.6 million 
increase for the Natural Resource Challenge, the agency's multi-year 
effort to increase knowledge about, and protection of, the natural 
resources under our stewardship. This effort, initiated in 2000, is an 
integral part of the National Park Service's efforts to develop a 
scientific base of knowledge about park resources. We also propose, for 
the first time, $10 million for ``Preserve America'' grants, an 
initiative announced by the First Lady to help communities preserve 
historic places by integrating them into heritage tourism initiatives 
and other contemporary uses of historic properties. The new Preserve 
America grants complement the $30 million proposed for Save America's 
Treasures.
    <bullet>  Law Enforcement. Along with a $4.7 million increase 
requested for law enforcement at specific parks, the budget includes an 
increase of $7.7 million to strengthen other law enforcement and 
protection efforts. This funding increase would support regional 
special agents, the collection and analysis of law enforcement data, 
the establishment of central management of law enforcement at our 
Washington, D.C., office, additional terrorist threat preparedness for 
the U.S. Park Police, and security for the 2005 Presidential 
Inauguration. Cumulatively since September 11, 2001, we have enhanced 
security with additional base funds totaling $41 million for Park 
Police, national icons, border protection, and other law enforcement 
efforts.
    <bullet>  Partnership Initiatives.
          <all>  The budget request includes $21 million for the 
        Cooperative Conservation Initiative. Proposed as part of the 
        Land and Water Conservation Fund, most of this funding would 
        provide expanded opportunities for partner participation 
        through the Challenge Cost Share Program. The Challenge Cost 
        Share Program under the Cooperative Conservation Initiative, 
        which funds projects based on a one-to-one or better match in 
        funds, helps the National Park Service undertake land 
        restoration and conservation projects that leverage Federal 
        dollars through partnerships. These grants enable the National 
        Park Service to work cooperatively with gateway communities and 
        other partners to advance Secretary Norton's vision of 
        cooperative conservation. In FY 2003, the National Park Service 
        issued 72 CCI challenge cost-share grants to over 200 partners 
        who more than matched $5 million of Federal funds.
          <all>  We propose an increase of $850,000 for another 
        important partnership initiative, the Volunteers in Parks 
        Program. The additional funding will pay for training, 
        supervising, and utilizing an anticipated increase in 
        volunteers expected in the Senior Ranger program, as well as 
        enhancing our internal coordination and oversight of both 
        volunteer and partnership programs. These partnerships give 
        opportunities for Americans to enjoy and strengthen their ties 
        to the Nation's parks.
          <all>  Land and Water Conservation Fund state grants, a 
        matching-fund program to provide open space and recreational 
        facilities, would receive $91 million.
    <bullet>  Park Operations. Overall park operations and maintenance 
funding would increase by about $77 million, nearly five percent, over 
FY 2004. That figure includes $22 million in programmatic increases for 
73 parks. The majority of that funding would be used for preventive 
maintenance at parks with high-priority buildings and for increased law 
enforcement and security at parks along the U.S.-Mexico border and at 
icon parks, such as the Statue of Liberty National Memorial. About one-
third of the $22 million would be directed to new National Park Service 
responsibilities, such as establishing operations at the recently 
created Flight 93 Memorial in Pennsylvania and providing maintenance 
and visitor services for the new World War II Memorial on the National 
Mall.
    <bullet>  Land Acquisition. The Federal land acquisition request is 
$84 million. Nearly half--$40 million--is proposed for potential 
acquisition of a portion of the oil and gas holdings underlying Big 
Cypress National Preserve. Interior is prepared to continue to work 
with the mineral rights holder using the Department's new guidelines 
and procedures for appraisals for land acquisitions and exchanges. 
Funding would also support acquiring the site for the Flight 93 
National Memorial, Civil War battlefield grants, and other high 
priority acquisitions.
    <bullet>  President's Management Agenda. We propose an increase of 
$8 million to meet our commitment to the President's Management Agenda. 
Funds will help improve management and performance of the National Park 
Service by supporting information technology improvements and security 
enhancements, and by strengthening financial management and performance 
budgeting.
Deferred Maintenance Backlog
    In addition to the budget highlights just described, addressing the 
backlog of deferred maintenance in our National Parks continues as one 
of the Administration's highest budget priorities for the National Park 
Service. We again reflect that priority in this year's request of 
$1.112 billion to address deferred maintenance of park facilities and 
roads. This is nearly double the amount for the same categories just 
seven years ago. With this request, we are on track to exceed the 
President's goal of investing $4.9 billion over five years to address 
the backlog by improving facilities and roads in our parks. In the four 
budgets of this Administration, nearly $3.9 billion to date has been 
proposed to address deferred maintenance in parks. The funds provided 
are achieving tangible results. The National Park Service has 
undertaken over 1,300 projects using repair and rehabilitation funding 
in FY 2001-2003 with another 400 more anticipated to be done in FY 
2004.
    Examples of major construction and rehabilitation projects include:
    <bullet>  $4.1 million for Lava Beds National Monument in 
California to relocate the Visitor Center away from fragile underground 
resources;
    <bullet>  $2.1 million for Yellowstone National Park to replace a 
wastewater treatment plant and relocate sewer lines;
    <bullet>  $3.3 million for Acadia National Park to rehabilitate the 
historic carriage road bridges to correct drainage and waterproofing 
problems; and
    <bullet>  $1.9 million proposed in the FY 2005 budget for Fort 
Larned National Historic Site in Kansas to correct structural problems 
in the Old Commissary and stabilize and restore the North Officers' 
Quarters.
    Park roads make up a significant portion of the deferred 
maintenance backlog. The President's proposal for the next highway 
authorization bill contains at least $300 million annually for National 
Park Service transportation, which is roughly double the amount of 
funding made available for park roads under the last six-year 
authorization. This is the amount needed to raise the overall condition 
of our road network from mostly poor to acceptable. Current versions of 
the legislation under consideration in Congress would not enable us to 
meet this goal. The Administration will be working closely with 
Congress as the legislative process continues to try to sustain the 
President's objectives.
    Complementing these efforts has been an increase in cyclic 
maintenance, the funding used for routine, preventive maintenance, to 
keep facilities from gradually falling into disrepair. Funding for 
cyclic maintenance, $22 million in FY 2002, would increase to $65 
million under the FY 2005 request. Other targeted funding increases 
will protect the improvements achieved with recent investments. For 
example, the budget contains a base operating increase of $305,000 at 
Yosemite to help that park reestablish a preventive maintenance program 
for roads and trails.
    In addition to these investments, the National Park Service now 
has--for the first time ever--a system to grade the condition of 
facilities. Over the last three years, the National Park Service has 
undertaken a full inventory of its industry-standard assets, determined 
what their condition is, and identified what repairs or changes in 
facility management are needed. With a facility management system used 
by commercial property managers across the nation, the National Park 
Service now has ``grades'' for its facilities and other assets. These 
grades result from what is called a facility condition index (FCI). 
With this system, the National Park Service can set targets each year 
to improve facility grades and achieve an overall acceptable condition 
for facilities. Our management changes will enable the National Park 
Service to take care of park assets far more effectively and 
efficiently than in the past.
    This is in contrast to earlier National Park Service estimates, 
cited in a 1998 General Accounting Office report (``Efforts to Identify 
and Manage the Maintenance Backlog'' GAO/RCED-98-143), that the 
deferred maintenance backlog had more than doubled between 1987 and 
1997, to an estimated $4.9 billion. That figure represented just a 
compilation of desired projects in parks--desires of individual site 
managers that were not validated by systematic, comprehensive 
assessments of the true asset conditions or prioritized by NPS.
    For many, there is a desire to simplify the issue of the backlog 
down to one question: ``What is the backlog?'' We now know that the 
answer cannot be stated as a static dollar number. Instead, using 
property management standards, maintenance condition is best defined 
using a grading system that compares (a) the total cost to completely 
replace facilities with (b) the total sum of all repairs to put a 
facility in perfect condition. We can combine that grading system with 
criteria for determining which facilities are high priorities, what 
types of improvements are most important to ensure safety and visitor 
enjoyment, and whether to change the type or scale of a facility as we 
repair or replace them. These decisions, in combination, give us a 
roadmap for determining annual resource needs to maintain and manage 
park facilities. Using this approach, we can determine priorities, set 
goals, establish funding levels to achieve those goals, and then 
measure our performance against a baseline set of ``grades'' and 
performance goals.
    Through our management system, we are answering four basic 
questions about our facilities. Think of them as ``the 4 W's''. For 
each building or other asset, we need to know:
    <bullet>  WHAT is the asset and its management priority?
    <bullet>  WHAT condition is it in?
    <bullet>  WHAT will it cost to improve the asset to acceptable 
condition?
    <bullet>  WHAT are the long-term costs to maintain that asset?
    When I arrived nearly three years ago, we didn't have answers to 
most of those questions. Under the President's National Parks Legacy 
Project, we are now well on our way towards knowing those answers, with 
more work to be done to achieve full implementation of our asset 
management system by the end of FY 2006.
    What is the asset and what is its management priority? For the 
first time, we have a comprehensive inventory of our industry-standard 
assets--which are mainly buildings, paved and unpaved roads, trails, 
campgrounds, houses, and water and wastewater plants. For the first 
time, we are using a systematic, interdisciplinary process to set 
management priorities for our assets on a park-by-park basis.
    What condition is it in? For the first time, NPS is using a uniform 
software system at all the parks, so that everyone is collecting and 
posting information about their assets in the same way. We have done 
initial condition assessments at all parks, except for four of the most 
asset-intensive parks (Gateway, Golden Gate, Yellowstone, and the 
Appalachian Trail), which are all on schedule to be completed by 
October.
    What will it cost to improve the asset to acceptable condition? For 
the first time, we have preliminary estimates of what it will cost to 
improve the industry-standard assets to acceptable condition. Decisions 
about what to spend money on will be influenced by management 
considerations, as well as the condition and priority information.
    What are the long-term costs to maintain that asset? For the first 
time, we are developing preventive maintenance schedules so that we 
will know not only how much it will cost over the long-term to maintain 
those assets, but also when we will need to make investments to avoid 
having them become part of the deferred maintenance backlog.
    We have also made other improvements. For example, we have 
implemented a systematic prioritization process for line-item 
construction and repair and rehabilitation projects. We expect to make 
some changes to incorporate the information we are gathering through 
the inventory and condition assessment processes. We have conducted 
significant training across the National Park Service on the use of the 
facility software and cost-estimating systems and to help facility 
managers and park superintendents understand the new approach to asset 
management. We are developing, and anticipate issuing later this year, 
a new Director's Order on facility management that will bring all of 
these pieces together.
    These efforts create a management culture in which park managers 
think of assets in terms of life cycle, so that we avoid past patterns 
in which we let things deteriorate and then waited for the next 
significant influx of funding to make repairs. Put another way, we are 
trying to shift from a series of crash diets to a sustained healthy 
lifestyle. Our challenge has been as much about management as about 
money.
    Our new approach moves us away from discussions about project lists 
and aggregate price tags and moves us toward setting goals and 
measuring accomplishments. Using the industry-standard measure of a 
facility condition index, we now have a ``grade'' for the condition of 
our facilities. Previously, we tracked projects and dollars spent. Now 
we are going to track change in overall condition--the true measure of 
performance management.
    It is far more important to know, and measure, that our assets are 
in better condition than to know only that a project was completed. It 
is for this reason that the President's FY 2005 budget, for the first 
time, establishes performance goals for NPS facilities. Our funds will 
target strategic project investments to improve facility conditions. 
For example, the FY 2005 budget proposes a multi-year effort to restore 
the historic Old Faithful Inn at Yellowstone National Park. We 
anticipate that this first phase alone will result in an improvement of 
nearly 50 percent in the FCI for that building. Under our new system, 
once this project is completed, we will know when the major components 
need to be replaced and can program our work so that the preventive 
maintenance occurs when it should. This approach sustains the life 
cycle of the asset. Failure to make those future investments would be 
evident in a change in the FCI--the ``grade'' would decline.
    The new approach also allows supervisors to prioritize projects, 
using an asset priority index to show an asset's importance to 
accomplishing the park mission. We also need to consider health and 
safety issues, resource preservation requirements, and visitor service 
needs. With finite resources, National Park Service managers, like all 
managers of public and private assets, have to make decisions all the 
time about which assets and which maintenance needs to fund and in what 
sequence. We are giving managers the necessary tools to make those 
decisions through a disciplined approach that uses both the FCI and the 
asset priority index.
    Mr. Chairman, I would like to use our homes, and how we manage 
them, as an analogy. We all know there is always something that needs 
to be done to put a house in perfect condition. Our houses inevitably 
experience deterioration over time, even if we provide the right levels 
of maintenance. No matter how well we take care of an asphalt shingle 
roof, it will have to be replaced after about twenty years. This 
phenomenon is called ``component renewal.'' We can plan for these needs 
and thus minimize emergencies, and, most importantly, limit the scope 
and the cost of maintenance over time. If we do not replace that roof 
when we should, other things can go wrong, and before we know it, what 
started out as a $5,000 roof replacement is now a $50,000 
rehabilitation project that also encompasses ceilings, walls, and 
electrical systems. A lack of timely maintenance can lead to more 
costly repairs.
    Based on the work that the Park Service has done to date, we now 
have key information about the condition of our assets. For example:
    <bullet>  Our trails and campgrounds, while not perfect, are in 
reasonably acceptable condition. Because of their high public use, this 
is as it should be.
    <bullet>  Conversely, our wastewater treatment facilities, which 
are far less visible, meet code but need upgrading.
    <bullet>  Similarly, many parks have paved roads in poor condition 
and in need of repair.
    As a case study to highlight the application of these new tools, we 
can consider the assets at Shenandoah National Park. The current 
replacement value for the industry-standard assets (excluding housing) 
at Shenandoah is $268 million, with the sum of repairs to bring these 
assets to perfect condition about $62 million. This translates to an 
average FCI for the park of 0.23. Within this data, we know that the 
building assets have a current replacement value of approximately $46 
million, and the sum of repairs to bring these buildings into perfect 
condition is a little more than $14 million, which means Shenandoah's 
building average FCI is 0.31. By comparison, Shenandoah's campgrounds 
are in much better condition than the buildings in the park--an average 
FCI of 0.18. Likewise, the trails at Shenandoah are also in acceptable 
condition--average FCI of 0.09. Thus, in deploying funding at 
Shenandoah, we would anticipate a greater emphasis on buildings to 
improve their overall condition.
    But we also know that not all buildings will require additional 
funding. For example, the Dickie Ridge Visitor Center has a relatively 
high priority (asset priority index of 30 out of 40 possible) and an 
acceptable level FCI (0.10). We will be able to plan and budget the use 
of cyclic funding to keep this facility in acceptable condition so that 
the FCI does not worsen.
    Using the information about the priority of the assets and the 
grade of their condition, the National Park Service will be able to 
apply its maintenance funding to the most important resources needed to 
protect the park and serve the public.
    Finally, information about asset conditions and priorities does not 
automatically tell us what to spend. These decisions depend upon 
overall management goals in relationship to visitor enjoyment and 
resource protection needs. We still need to decide whether to 
demolish--rather than repair--redundant facilities, for example. We 
also will face decisions on whether to repair or, instead, upgrade a 
facility to larger capacity. The decisions will be made by on-the-
ground park managers, but they will be more informed decisions, 
factoring in the information contained in the FCI and the asset 
priority index. This illustrates again why there is no single price tag 
for improving park facilities.
    Mr. Chairman, this Administration often uses a scorecard approach 
on program management and accomplishments. Several years ago, NPS would 
have received a ``red'' light for its facility management systems. With 
the progress in recent years, however, the Service has moved to a 
strong yellow, with a clear path for how we are going to get to green.
    This concludes my prepared testimony. I would be pleased to respond 
to any questions the Committee may have.

[GRAPHIC] [TIFF OMITTED] T2178.001

[GRAPHIC] [TIFF OMITTED] T2178.002

                                 ______
                                 
    Mr. Radanovich. Ms. Clarke, welcome to the Subcommittee and 
you can begin your testimony now. Thanks.

    STATEMENT OF KATHLEEN CLARKE, DIRECTOR, BUREAU OF LAND 
 MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, D.C.

    Ms. Clarke. Thank you very much, Mr. Chairman and members 
of the Subcommittee. It is a distinct pleasure for me to be 
with you today to discuss the Bureau of Land Management's 2005 
budget request, as well as our ongoing efforts to reduce the 
agency's maintenance backlog. In the interest of time, I am 
also going to summarize my comments.
    As you may know, it is the mission of the BLM to sustain 
the health, diversity, and productivity of the public lands for 
the use and enjoyment of present and future generations. The 
public lands certainly contribute in many ways to the wealth of 
this nation and I believe also to the quality of life of every 
citizen.
    For example, we provide recreation opportunities. We 
provide access to resources. We protect some of the nation's 
most significant cultural, historic, and natural places. We 
serve communities through science, wildland fire fighting, and 
law enforcement. And the BLM also continues to be one of the 
few Federal agencies whose actions generate more money than we 
spend to operate.
    Across the country, the BLM is responsible for management 
of 261 million acres of the public's land. This is more than 
any other Federal agency and it represents one in every five 
acres in the intermountain West. We also manage over 700 
million acres of subsurface Federal mineral estate. Our more 
than 10,000 employees have a lot of ground to cover and they 
certainly face new challenges every day.
    The BLM believes that one of the most important things we 
do is to assure the health and the productivity of the land. We 
believe that having healthy lands is essential to providing a 
robust, multiple-use mission, as was mandated by Congress.
    The BLM initiatives to accomplish this include implementing 
the National Fire Plan; a comprehensive strategy to reduce the 
risk of catastrophic wildfires; implementing the Healthy Forest 
Restoration Act, which as you know promotes restoration and 
hazardous fields reduction on Federal forest and range land; 
sustaining working landscapes through grazing regulation 
reform; and improving recreational opportunities on public 
lands.
    BLM-managed lands also play a pivotal role in addressing 
the nation's increasing demand for energy production. The BLM 
continues to aggressively implement the President's National 
Energy Policy and assist in modernizing the nation's energy 
infrastructure in order to promote dependable and 
environmentally sound energy for this nation's future.
    BLM lands provide 11 percent of the nation's natural gas 
and 5 percent of the nation's oil. Furthermore, 90 percent of 
the oil and gas pipelines and electric transmission rights-of-
way in the West cross BLM lands. The development of alternative 
energy sources, such as wind, hydropower, and geothermal, is 
also an important component of BLM's diverse portfolio of 
energy resources.
    The BLM's 2005 budget request of $1.8 billion reflects 
these priorities. Our 2005 budget request is an increase of 
$64.5 million, or 4 percent over the 2004 enacted level of 
funding.
    We are requesting funding increases in Fiscal Year 2005 for 
some particularly important programs, including the Healthy 
Forest Initiative, sage grouse and sagebrush habitat 
conservation, Challenge Cost Share and Cooperative Conservation 
Initiatives, wild horse and burro program, and other monitoring 
activities.
    In 2005, the BLM estimates that it will produce over $3.6 
billion in receipts. These revenues are particularly important 
to rural populations in the West because a portion of these 
receipts that the BLM collects are distributed to local 
communities.
    The BLM also continues to work to reduce the backlog of 
deferred maintenance projects, which is an important component 
of President Bush's management initiative to ensure proper care 
of our public lands facilities systems. These projects include 
repair work on such things as buildings and administrative 
facilities, recreationsites, roads, trails, bridges, and dams.
    The 2005 funding request for BLM's operations, annual 
maintenance, deferred maintenance, and infrastructure 
improvement activities is $76.5 million.
    The President and the Congress have committed significant 
funds to address both the repair and management aspects of 
BLM's deferred maintenance efforts. Funds provided to date are 
achieving tangible results, as the BLM has begun to improve the 
conditions of hundreds of public land assets. In the past 4 
years at various BLM sites, BLM has completed or has underway 
over 450 repair and rehabilitation projects. These investments 
have made BLM facilities safer, more efficient, and more 
enjoyable for visitors and employees, as well.
    Mr. Chairman, thank you again for the opportunity to 
discuss the Bureau's 2005 budget request, our vision for 
managing the public lands, and the condition of public lands 
facilities. I look forward to working with you and the 
Subcommittee on these issues and look forward to your 
questions.
    Mr. Radanovich. Thank you, Ms. Clarke, for your testimony. 
I do appreciate it.
    [The prepared statement of Ms. Clarke follows:]

  Statement of Kathleen Clarke, Director, Bureau of Land Management, 
                United States Department of the Interior

    Mr. Chairman and members of the Subcommittee, I am pleased to 
appear before you today to discuss the Bureau of Land Management's 
(BLM) FY 2005 Budget Request and on-going efforts to reduce the 
Agency's maintenance backlog.
    I would like to begin by discussing my ongoing vision for the BLM 
and its future. It is the mission of the BLM to sustain the health, 
diversity and productivity of the public lands for the use and 
enjoyment of present and future generations. The public lands 
contribute in many different ways to the wealth of the nation and to 
the quality of life of every American citizen. For example, we provide 
recreation opportunities; we provide access to resources; and we 
protect some of the Nation's most significant cultural, historic, and 
natural places. And, we serve communities through science, wildland 
firefighting, and law enforcement. The BLM also continues to be one of 
the few Federal agencies whose actions generate more money than it 
spends to operate.
    Across the country, the BLM is responsible for the management of 
261 million surface acres of public land--more than any other Federal 
agency and represents one of every five acres in the inter-mountain 
West--as well as over 700 million acres of subsurface Federal mineral 
estate. Our employees, who number over 10,000, have a lot of ground to 
cover and face new challenges every day. These new challenges are the 
same challenges that the communities in which we work are facing.
    The population of the West has grown from 17 million to 63 million 
over the past 50 years. That trend will continue as people move West 
for the quality of life, including access to the great outdoors. Today, 
more than 22 million people live within 25 miles of the public lands. 
The growing wildland urban interface means we will continue to face 
growing challenges in managing our forests, woodlands and grasslands to 
reduce the threat of catastrophic wildfires. But we are dealing with 
more than just population growth. We are also dealing with changes in 
the way people use the public lands and different kinds of conflicts 
over changing priorities and values.
    The changing condition of the public lands is another challenge 
facing the agency. Drought, wildland fire, invasive species, and 
development on adjacent lands have an impact on proper functioning 
ecosystems. The BLM is responding to these conditions in a variety of 
ways in order to sustain the health, diversity, and productivity of the 
public lands for current and future generations.
    BLM-managed lands play a pivotal role in addressing the Nation's 
increasing demand for energy production. The BLM continues to 
aggressively implement the President's National Energy Policy, and 
assist in modernizing the Nation's energy infrastructure in order to 
meet increased demands for the development and delivery of renewable 
and non-renewable energies. BLM lands provide 11 percent of the 
Nation's natural gas and five percent of the Nation's oil. Furthermore, 
ninety percent of the oil and gas pipelines and electric transmission 
rights-of-ways in the West cross BLM lands. The development of 
alternative energy sources--such as wind, hydropower, and geothermal--
continues to be an important component in the President's National 
Energy Policy and BLM's diverse portfolio of energy resources.
    I believe we can successfully face these challenges and enhance the 
quality of life for all citizens through the balanced stewardship of 
America's public lands. The BLM strives to improve the health and 
productivity of the land to support BLM's multiple-use mission. BLM 
initiatives to accomplish this include: implementing the National Fire 
Plan, a 10-year comprehensive strategy to reduce the risk of 
catastrophic wildfires; implementing the Healthy Forests Restoration 
Act, which promotes restoration and hazardous fuels reduction on 
Federal forests and rangelands; supporting the President's National 
Energy Policy to promote dependable and environmentally-sound energy 
for the future; sustaining working landscapes through grazing 
regulation reforms; and improving recreational opportunities on the 
public lands.
    The BLM is also cultivating community-based conservation, citizen-
centered stewardship, and partnerships. We are an ``open door'' agency 
and we try to emphasize bringing people into the land management 
process. This is the philosophy behind the President's direction to 
develop policies based on common sense and common ground and the 
philosophy behind the Secretary's Four Cs--consultation, cooperation, 
and communication, all in the service of conservation. For example, the 
BLM now works to bring states, counties and tribes into the planning 
and National Environmental Policy Act (NEPA) processes through 
developing Cooperating Agency relationships. We believe decisions made 
with local input are decisions that work best.
FY 2005 BLM Budget Overview
    The BLM's FY 2005 Budget Request reflects the trend in changing 
demographics of the West and addresses many challenges in cooperation 
with partners to assure healthy forests and rangelands; protection from 
and prevention of catastrophic wildfires; and the development of 
renewable and non-renewable energy sources. Inherent in the BLM's 
mission is the need to provide for public health and safety, and, as in 
past years, the BLM's FY 2005 budget also reflects efforts to continue 
addressing the deferred maintenance backlog on public lands.
    The BLM's FY 2005 Budget Request is $1.8 billion for the BLM's 
major appropriations, including Management of Lands and Resources, 
Construction, Land Acquisition, Oregon and California Grant Lands, 
Range Improvements and Miscellaneous Trust Funds. The BLM's budget also 
includes requests for funding for the Department of the Interior's 
Wildland Fire Management and the Department's Central Hazardous 
Materials Fund. This represents an increase of $64.5 million, or 4 
percent, over the FY 2004 enacted level of funding. The BLM's total 
appropriation is $3 billion when you include receipt-based accounts.
    Initiatives to Restore, Maintain, and Improve the Health of the 
Land--In 2005, the BLM will focus on restoring fish and wildlife 
habitat, removing excess wild horses and burros from public lands, 
improving rangeland conditions, and increasing monitoring efforts to 
assure that desired resource objectives are met. By taking these 
actions, the BLM hopes to prevent litigation, improve species habitat, 
and allow for the continued multiple use of public lands. The 
initiatives for which we are requesting funding increases include:
    <bullet>  Healthy Forests Initiative--The FY 2005 BLM Budget 
Request proposes an increase in funding for improving forest health and 
implementing the President's Healthy Forests Initiative and the 
recently passed Healthy Forests Restoration Act. The BLM is proposing 
an increase in funding of $788,000 in the Oregon and California Grant 
Lands Appropriation, combined with a redirection of $3.7 million within 
the Jobs in the Woods Program, to increase thinning in late 
successional reserves (LSR) in western Oregon. The BLM plans to produce 
an additional 30 million board feet of timber that will help promote 
old growth timber characteristics in LSR's while at the same time 
increasing economic benefits in timber dependent communities in western 
Oregon. An additional $500,000 in the Jobs in the Woods Program will be 
refocused and used for pre-commercial thinning activities in LSR's that 
will also will improve the resource conditions.
           Outside of western Oregon the BLM is requesting an increase 
        of $1 million to promote healthy forests by completing 1,500 
        acres of forest restoration treatments on public domain forest 
        lands using all the Healthy Forests Restoration Act tools, 
        including stewardship contracts. An estimated 7 million board 
        feet of timber will be produced, including biomass for energy 
        production. In addition to improving forest health, the 
        projects will provide job opportunities in local communities 
        and will help stimulate the development of markets for small-
        diameter wood byproducts and the nascent biomass industry.
           The 2005 budget reflects the Administration's continued 
        commitment to implementing the National Fire Plan and reducing 
        the loss of life and property and environmental damage caused 
        by catastrophic wild fires. In FY 2005, the BLM, on behalf of 
        the Department of the Interior (DOI), is requesting 
        programmatic increases totaling $55.2 million--$25 million for 
        hazardous fuels reduction projects; $28.6 million for fire 
        suppression activities; and $6.5 million for fire preparedness 
        activities. These increases will allow DOI to address an 
        additional 45,000 acres of fuels build-up in the wildland urban 
        interface; improve and enhance fire preparedness and readiness 
        capabilities; assure that all personnel and resources are ready 
        to respond to fire emergencies; and fund suppression at the 10-
        year average. The Wildland Fire Management budget also includes 
        a proposed decrease in funding of $4.9 million for the Rural 
        Fire Assistance Program in recognition of the significant 
        expansion of the Federal Emergency Management Administration's 
        local fire assistance program.
    <bullet>  Sage Grouse & Sagebrush Habitat Conservation--The BLM is 
proposing an increase of $3.2 million to implement actions to improve 
habitat for the sage grouse and other species dependent on sagebrush 
ecosystems. By taking aggressive management actions to improve land 
health by conserving and restoring habitat for the sage grouse and 
other species, the BLM can help curb the decline of the population of 
these species and possibly prevent their listing under the Endangered 
Species Act.
    <bullet>  Challenge Cost Share (CCS)/Cooperative Conservation 
Initiative (CCI)--The BLM's CCS and CCI Programs leverage appropriated 
funds with private and state funds to conduct conservation efforts that 
benefit the public lands. CCI principally focuses on on-the-ground 
restoration activities, while CCS projects focus on all other 
conservation initiatives. The BLM has partnered with over 100 national 
and local-level conservation groups in efforts to restore the health of 
the land. In FY 2003, the BLM funded 486 CCS projects and obtained $23 
million in cash and in-kind contributions of labor and services. The 
BLM also funded 87 CCI projects and obtained $10.8 million in cash and 
in-kind contributions. The BLM's FY 2005 budget builds on these past 
successes and proposes an increase of $2.2 million for CCS and an 
increase of $2.6 million for CCI. These activities are an important 
element of BLM's efforts to maintain and restore the public lands in 
cooperation with partners.
    <bullet>  Wild Horses & Burros--The FY 2005 Budget Request includes 
a proposed increase of $12.8 million for the management of wild horses 
and burros. Currently, there are approximately 36,000 wild horses and 
burros on public lands, and another 24,000 animals are being cared for 
in long- and short-term holding facilities. This condition is neither 
ecologically nor financially sustainable over the long-term, and the 
situation will only worsen if the BLM does not take immediate steps to 
reach an appropriate management level (AML) of 25,000 animals on the 
public lands. If left unchecked, the populations of these animals will 
double every five years. A majority of the requested funding, $10.5 
million, will be reallocated from other BLM resource programs, many of 
which will benefit in the long-term from reduced animal populations on 
the range. With the proposed redirection of funds, the BLM anticipates 
meeting AML by 2006.
    <bullet>  Columbia Basin Fish Habitat Restoration--The BLM is 
proposing an increase of $1 million to continue restoration actions on 
an additional 25 miles of riparian habitat in the tributaries of the 
Columbia River basin.
Initiatives to Monitor & Develop Land Use Plans for Effective Land 
        Management--
    Beginning in 2001, the BLM began a major initiative to update and 
amend its land use plans in an effort to ensure that it was effectively 
responding to local needs, national priorities, and changing demands of 
the public land users. The BLM's FY 2005 Budget Request includes a 
proposed increase to ensure that updated land use plans and the 
activities they authorize are meeting their intended goals.
    <bullet>  Monitoring--A proposed increase of $4 million is 
requested to complement and expand on existing on-the-ground monitoring 
activities by providing a consistent framework for assessing land 
health conditions, and developing a plan to coordinate and consolidate, 
whenever possible, existing monitoring data. The goals of this effort 
will be to develop a broader perspective on the state of land health 
across BLM, to better quantify the impacts of alternative management 
options, and to identify data gaps for planning future monitoring work.
    <bullet>  Land Use Planning in Western Oregon--In order to settle a 
long-standing lawsuit, the BLM has committed to revising the six land 
use plans that provide management direction for lands in western 
Oregon. These plans, initially developed as part of the Northwest 
Forest Plan, have led to various lawsuits and prolonged litigation 
preventing the BLM from reaching key goals of the Northwest Forest 
Plan, including planned timber harvest levels. The FY 2005 Budget 
Request proposes an increase of $7 million to begin the plan revision 
process, including public scoping, preparing scientific studies, 
evaluating current plans, and beginning Endangered Species Act 
consultations.
Utilization of Public Land Resources & Services--
    The BLM has a major role, and a major workload, in implementing the 
President's National Energy Policy, especially its goal of improving 
access to energy resources located on public lands while continuing to 
assure the safe, environmentally-sound development of these resources. 
The BLM is undertaking efforts to more effectively and efficiently 
respond to these increased demands and provide for public needs and 
improved customer service.
    <bullet>  Energy Development--In recent years, the BLM's Energy and 
Minerals Program has received significant increases in funding to 
respond to the increasing demand for natural gas, the workload 
associated with processing applications for permits to drill (APD), and 
inspection and enforcement activities. The BLM's FY 2005 budget request 
maintains the program at the FY 2004 level through a combination of 
appropriated funds and cost recovery. The BLM will continue to 
emphasize processing APDs, monitoring to ensure environmentally-sound 
practices, and implementing the second phase of an inventory of oil and 
gas resources on Federal lands (the ``EPCA inventory'') while beginning 
to utilize the findings of the initial EPCA study.
           The BLM has a major role in developing and delivering the 
        Nation's renewable and non-renewable sources. The FY 2005 
        Budget Request includes a proposed increase of $250,000 to 
        continue studies and processing applications for wind energy 
        and other renewable energy projects on public lands. The 
        request also includes an increase of $550,000 for processing 
        rights-of-ways for renewable energy projects.
           The BLM's FY 2005 Budget Request also includes a proposed 
        decrease of $4 million in the Energy and Minerals Program for 
        cost recovery efforts. The BLM will implement regulations to 
        increase current fees to better reflect the costs of the 
        services provided. These regulations are anticipated to raise 
        an additional $4 million in revenues in FY 2005. The proposed 
        reduction will not have a negative impact on the BLM's 
        processing of applications.
           Customer Service Initiatives--The BLM's FY 2005 Budget 
        Request also proposes various increases for customer service 
        initiatives that will allow the BLM to more efficiently respond 
        to increased demands for BLM products and services. For 
        example, in support of the President's ``E-Gov initiative,'' 
        the BLM is standardizing external websites, developing NEPA and 
        land use planning software and systems (called ``E-Planning''), 
        and implementing electronic forms for filing of various 
        applications.
Other Proposed Changes in the FY 2005 BLM Budget ``
    <bullet>  Land Acquisition--The BLM proposes an increase of $5.6 
million for land acquisition for 14 projects in 9 states. These 
acquisitions are all on-going projects with willing sellers that focus 
on access issues and the preservation of critical habitats for fish and 
wildlife.
FY 2005 BLM Receipts
    As mentioned earlier, the BLM continues to be one of the few 
Federal agencies whose actions generate more money than it spends to 
operate. In FY 2005, the BLM estimates that it will produce over $3.6 
billion in receipts. In addition, a portion of the receipts that the 
BLM collects are distributed to local communities and are a significant 
source of support for rural communities in the West. The largest 
receipt-generating activity continues to be from the production of BLM 
onshore mineral leasing. Bonuses, rents, and royalties from these 
activities will generate approximately $2.3 billion in FY 2005; 
however, these receipts are reflected in the Minerals Management 
Service (MMS) budget.
    The sale of public lands and materials, and, in particular, land 
sales under the Southern Nevada Public Land Management Act (SNPLMA), is 
the second largest generator of receipts. SNPLMA allows BLM to sell 
public lands in the Las Vegas Valley, and to use the proceeds to 
address critical environmental and educational needs in Clark County, 
Nevada, and elsewhere in the State. In FY 2005, the BLM estimates that 
it will collect over $1 billion in receipts from the sale of public 
lands. Of this amount, SNPLMA will generate over $900 million. Since 
its inception in 1998, SNPLMA has generated over $690 million in 
receipts. Of the $900 million expected to be collected in FY 2005, 
approximately $149.3 million will be distributed back to the State of 
Nevada for its use.
    The balance of BLM's estimated FY 2005 receipts, approximately $350 
million, is collected from a variety of other sources and activities, 
including grazing fees ($13.2 million); sales of timber and vegetative 
materials ($36.6 million); recreation use permits ($11.2 million); the 
sale of helium ($134.5 million); mining claims and holding fees ($25.9 
million); National Petroleum Reserve--Alaska ($38.1 million, collected 
by MMS and transferred to the BLM); mineral leasing in the Naval Oil 
Shale Reserve in Colorado ($16.4 million); and various other 
collections, such as filing fees, earnings on investments, and service 
charges ($77.1 million).
Deferred Maintenance
    Finally, the BLM continues to work to reduce the backlog of 
deferred maintenance projects, including conducting condition 
assessments of facilities. These projects include repair work on such 
things as buildings and administrative facilities, recreation sites, 
roads, trails, bridges and dams. Currently, the BLM maintains 4,009 
buildings and structures, 687 administrative sites, 2,129 recreation 
sites, 78,123 miles of roads, 896 bridges, 15,457 miles of trails, and 
732 dams.
    The President and the Congress have committed significant funds to 
address both the repair and management aspects of BLM's deferred 
maintenance efforts. The FY 2005 funding request for BLM's Operations, 
Annual Maintenance, Deferred Maintenance and Infrastructure Improvement 
activities is $76.5 million. Currently, the BLM is planning to spend 
more than $40 million on Public Land and O&C Land deferred maintenance 
annually over a five-year period, for a total of $200 million. In 
addition, the BLM is planning to expend $47 million annually--or $235 
million over 5 years--for scheduled and preventive maintenance and 
operations.
    Funds provided to date are achieving tangible results, as the BLM 
has begun to improve the condition of hundreds of public land assets. 
In the past 4 years, the BLM has completed, or has underway, over 450 
repair and rehabilitation projects at various BLM sites. These 
projects, including 60 fire safety projects, have enhanced visitor and 
employee safety. They also have improved health protection by upgrading 
and repairing 186 water, wastewater, and sewer facilities. These 
investments have made BLM buildings safer, more efficient and more 
enjoyable for visitors and employees alike. The BLM also is working to 
improve its roads--90 percent of which are unpaved--and bridges.
    In an effort to move toward improving maintenance decisionmaking, 
BLM initiated our Stewardship Strategy in FY 2002. This includes 
implementation of the Facility Asset Management System (FAMS) to plan 
and track facility-specific maintenance needs and costs, to prioritize 
and monitor maintenance activities, and to prevent a recurrence of 
maintenance backlogs in the future. The FAMS maintenance data 
management system was rolled out in 2003. Once fully underway, FAMS 
will support the Stewardship Strategy by creating a more proactive 
approach to BLM maintenance, recording individual facilities' 
maintenance histories, and documenting annual maintenance needs and 
costs. FAMS will also greatly improve the data available to BLM to 
evaluate life-cycle costs for facility investments.
    In the second prong of the Stewardship Strategy, in FY 2003, the 
BLM began a comprehensive, Bureau-wide facilities condition assessment 
program. We expect to complete a full inventory, condition assessment, 
and costing of all BLM administrative and recreation sites in the first 
quarter of FY 2005. Importantly, these condition assessments will 
provide new and updated information to refine BLM's estimates of our 
national maintenance backlog.
    Finally, the BLM is expanding the condition assessment and deferred 
maintenance remedy costing of roads and trails. The Bureau has taken a 
leadership role in working with the Department of the Interior and 
other agencies to develop a useful facility condition index for our 
transportation assets. We will also begin condition assessments of 
BLM's dams and bridges this fiscal year.
Conclusion
    Mr. Chairman, thank you again for the opportunity to discuss the 
Bureau's 2005 Budget request, our vision of enhancing access to the 
public lands, and the condition of public land facilities. We look 
forward to continuing to work with your Subcommittee on these and other 
issues in Fiscal Years 2004 and 2005.
                                 ______
                                 
    Mr. Radanovich. I would like to start off by asking a 
couple of questions. Ms. Mainella, we discussed, or you did in 
your testimony, the issue of backlog maintenance and the number 
that always seems to be out there and some kind of a debate as 
to whether a snapshot of current backlog maintenance numbers is 
really an accurate projection, or if not in some cases can be 
misleading because of the nature of an asset like what is in 
the Park System, normal wear and tear, instances of floods or 
natural things.
    Ms. Mainella. Right.
    Mr. Radanovich. Can you expand that a little bit please, 
and also kind of relate that to hearing the increase in 
intention and funding that has been made, to at least make the 
number of the financial number of backlog maintenance a little 
bit smaller.
    Ms. Mainella. Yes. We have really made a great deal of 
success, again, in addressing the backlog, but the backlog is 
not really a number. It is always, just as you indicated, a 
snapshot in time. As we go forth--I mean, this morning, it 
could be, if everything was assessed one moment, it could be 
one value or it could go to a different. It really needs to be 
looked at as just an evolving condition of parks. And again, 
backlog, we are trying to take parks that aren't in good 
condition and get them into that condition, and management does 
play an important role.
    The way we define the measurement tool that we are using, 
this grading system, it is called, as I mentioned earlier, a 
Facility Condition Index, an FCI, and what that involves is 
actually knowing exactly what the replacement value is of 
everything, the 17,000 facilities we have in our parks, to the 
amount that--to what it would take to do repairs to get them 
into a perfect condition, and I do say perfect, which most of 
us usually don't--we like everything perfect, but that 
sometimes is not a realistic aspect within our budget to be 
able to accomplish, but we can get them so they are acceptable 
and safe and enjoyable for our visitors.
    So we have been able to do over 1,300 projects already 
under the money that we have done. We are going after another 
400 with the projects that are in our 2005 budget. And we are 
really making history, actually understanding and knowing so 
our staffs, our superintendents can make management decisions 
to be able to decide whether you are going to move forward.
    Let me give you an example of--I will go back to a house 
again. The FCI, the grading system that we are working on, 
talks about the value of what is the replacement value for our 
standard assets, industry standard assets, and that house could 
be valued at $400,000. If we were to say, hey, to make it all 
perfect, make your house perfect, it would take you $100,000 to 
get that house perfect. Well, that would give you an FCI of 
0.25. That is not considered as good as we would like it. We 
want it more--we want the numbers to get a little bit lower.
    So what you may decide, well, I am going to sell this 
house. I am not going to actually improve it. I am not going to 
stay in it. I am going to sell it. But in doing that, I need to 
get this house in acceptable condition to sell it. You then 
decide to spend $60,000, not $100,000, you are not going for 
perfect, but you are going for acceptable condition. You spend 
$60,000. In doing that, your grade, your FCI, goes down to 
0.10. That is a successful accomplishment and that is--you are 
going to sell that house very easily and you did not spend the 
whole $100,000 that might have been to make it all perfect.
    So in essence, what we have done is we have put science 
into the parks that never existed before, where the first time 
knowing how we work, how we make these differences, and then 
being able to see the accomplishments of over 1,300 projects 
already done and more underway.
    Mr. Radanovich. So what you are saying is that there is 
always going to be a backlog maintenance number out there and 
your Facility Condition Assessment will allow you to prioritize 
annual funding to go toward those things that make the most 
sense to be repaired and brought up--
    Ms. Mainella. That is correct. There will always be 
something, just like we had in Guam when we had the storms that 
came through, or the hurricanes that have come through 
different areas and stuff. I mean, it is always evolving. Every 
time we have, as I mentioned, the snow down in North Carolina 
that is taking place right now, that is impacting our parks and 
will add on. So it is always an evolving factor. So numbers, it 
is really better to stay with trying to go after what is an 
acceptable condition of our parks.
    Mr. Radanovich. Thank you very much.
    Ms. Clarke, do you have something equivalent in BLM for 
facilities assessment?
    Ms. Clarke. We do. We are a little bit behind the National 
Park Service in getting that online, but we completed the 
inventory of the facilities that we have and that we are 
accountable for in 2003. We are now in the process of going 
through those condition assessments. Secretary Norton has made 
this a priority and we are moving forward on a very common 
platform, so we are all going to be operating under the same 
system of accountability, having the same methods that we are 
going to apply to assessing conditions and to determining the 
cost of bringing those facilities into acceptable condition.
    So we are looking--like I say, we are a little further 
behind the eight ball in terms of getting there, but 
absolutely, we are moving in the same direction.
    Mr. Radanovich. Ms. Clarke, can you give me an idea of the 
status of the management plans for the new monuments that were 
created under the Clinton Administration and what has been the 
cost of those so far?
    Ms. Clarke. I am going to ask Mr. Benna to see if he can 
pull up the costs. I know that we are moving forward on all of 
those plans. Some of them had Congressionally mandated 
timeframes. Others, we have set forward on a regular time 
pacing.
    One of the elements that we have applied to all of those 
plans is a commitment to engage local communities in those 
plans to assure that those monuments reflected community 
values, community interests, that those lands continue to be of 
use to those communities in the way that we are applying the 
management scheme.
    We have had some slow-down in those management plans 
because of that process, but I think that has been a valuable 
tradeoff as we have had the benefit of applying the four 
``C''s, the conservation and communication with those 
communities to assure that we are making decisions that reflect 
the intent of the creation of those monuments as well as the 
values and concerns of local citizens.
    Larry, have you got any dollar numbers to share?
    Mr. Benna. Mr. Chairman, I can't give you the total right 
now. In our budget that we have submitted, we do break out 
specifically for each of the monuments, each of the land use 
plans we have in progress in 2005, the amount. So, for example, 
the Agua Fria National Monument in Arizona, we show a cost of 
$440,000 in 2005. We can provide for the record a complete 
accounting of that.
    Mr. Radanovich. For the record, yes, if you would provide 
the total number, that would be wonderful.
    Ms. Clarke, can you kind of give me a little bit of your 
opinion or kind of the conflict between the cost of backlog 
maintenance as it relates to the additional amount of money 
that is in BLM's budget for the purchase of new lands and 
bringing new lands into the BLM system? It can be frustrating 
when you have--you will always have that backlog maintenance 
number, you will always have that need for attention to backlog 
maintenance and at the same time the pressure of bringing new 
land into the system.
    Ms. Clarke. Let me just assure you that we are committed to 
responsibly dealing with that backlog. Certainly, the American 
people and the Congress has a right to expect accountability 
from all Federal agencies, including this one, and we will work 
diligently to bring online an appropriate process to make sure 
we understand what the needs are and that we are addressing 
those. And there is a bit of tension between that issue of 
addressing that and then the sometimes very appropriate 
decision to acquire new lands.
    The land acquisition increase in the 2005 budget is really 
quite small and, in fact, the overall budget request is about 
half of what has been funded for the last several years, but it 
represents a small increase over what was in our 2004 budget.
    We do have 261 million acres. That is a lot of land. I 
think that you will find that the land acquisition budget will 
be focused on some unique situations where we would be buying 
inholdings, where we need access in order to make an area 
available for recreation or some other interest or purpose, or 
it is land that is really critical to an existing conservation 
unit or designated conservation area to really complement that. 
And in most cases where we have identified land for 
acquisition, it has been in consultation with local communities 
and with their support that that would be an appropriate 
acquisition for the BLM.
    We also are utilizing our opportunities under the Baca 
legislation to look for opportunities to sell land, to transfer 
land to local communities if that is helpful. So we are trying 
to balance our land portfolio and to manage it responsibly.
    Mr. Radanovich. Great. Thank you very much.
    Donna?
    Mrs. Christensen. Thanks, Mr. Chairman, and thank you both 
for your testimonies.
    Let me go to Director Mainella first. Although I am not 
satisfied with your budget, I can hear from your testimony and 
from our prior discussions how hard you worked to get what you 
did get.
    Ms. Mainella. Thank you.
    Mrs. Christensen. Although it is short, in my estimation, 
and I am sure yours, it is better than some that I have seen.
    [Laughter.]
    Mrs. Christensen. I also want to applaud the increased 
spending that you demonstrated on maintenance, where you said 
you doubled the commitment to maintenance and tripled the cycle 
maintenance.
    But was the $4.9 billion estimate, do you consider that was 
an accurate estimate? I am going to ask sort of a three-part 
question. When the President promised to meet that $4.9 
billion, has the increase that you demonstrated kept pace with 
the needs and can we assume, then, that we have just $1 
billion, that we are just $1 billion short of our maintenance 
budget?
    Ms. Mainella. Thank you, and I appreciate you always being 
available and working with us in parks. The $4.9 billion that 
the President said he was going to spend toward maintenance 
backlog was, again, a snapshot in time. In other words, he went 
with the numbers that were in a GAO report that was done in 
1998 even at that point, and he was trying to make a statement 
in my mind that this is a priority for us, to have parks that 
are acceptable and in good--in being able to be enjoyed, 
because it is really exciting to open up new facilities, but to 
do the sewage treatment and do the repairs of roads is not very 
exciting. So he took on that less glamorous, and I think we 
have made a huge impact.
    To think in terms of whether, again, because there was no 
science used, the GAO was only given lists and those lists did 
not have science to them, and--
    Mrs. Christensen. So it might have been more than $4.9 
billion?
    Ms. Mainella. It may have been much more than that, yes. 
But the GAO report singled out $4.9 billion and I think that, 
again, trying to make a commitment to address the backlog to 
help our parks in the less glamorous ways was what the 
President was attempting to do here, and this--
    Mrs. Christensen. May I just interrupt you?
    Ms. Mainella. Yes.
    Mrs. Christensen. Did we spend, then, $3.9--
    Ms. Mainella. We spent $3.9--we will spend $3.9 billionwith 
the 2005 budget and we will be up to the $4.9 billion by the 
time the 2006 arrives, at least based on--with your support.
    Mrs. Christensen. And how short will we be really of the 
real backlog, the maintenance needs?
    Ms. Mainella. Well, keep in mind, again, there is not an 
actual number. We are going to constantly do this little more 
complicated grading system, but it is the science of what we 
do, looking at what is the--to be constantly evaluating what is 
the full cost to do a replacement value--the replacement value, 
not a cost, replacement value for the industry standards of the 
parks and then compare it to what would it take to be in 
perfect condition, what repairs are necessary, and then we add 
in the management. So that is always an evolving issue. And 
again, because of things like hurricanes and everything else, 
it just constantly adds to our issues when we are not expecting 
it.
    Mrs. Christensen. OK. And in the budget in brief, you 
talked about the comprehensive inventory which you talked about 
this morning.
    Ms. Mainella. Yes.
    Mrs. Christensen. I think it would be very helpful if you 
would provide the Subcommittee with a copy of the survey. We 
can make informed decisions on the Committee if we have that.
    Ms. Mainella. Would it be helpful maybe to start with--it 
is very voluminous, and we can provide all that. I don't know 
if you just want to see a sample to start with and then decide 
if you want all, or--
    Mrs. Christensen. I think--
    Ms. Mainella. Do you want to do it all?
    Mrs. Christensen. I would think for the Committee, all 
would be more appropriate.
    Ms. Mainella. We will do it. Thank you. I just--
    Mrs. Christensen. Thank you. Assuming that the--as you 
said, it is hard to say in one moment in time what your backlog 
is.
    Ms. Mainella. That is correct.
    Mrs. Christensen. And it sounds like it is more than $1 
billion. So what were the figures that the survey you did came 
up with, the total replacement cost, the cost to return them to 
perfect condition and to good condition? Can you tell us--
    Ms. Mainella. Again, I--
    Mrs. Christensen.--the total numbers?
    Ms. Mainella. I will put the little parameter. Number one, 
again, remind that any numbers I am putting out--
    Mrs. Christensen. Right.
    Ms. Mainella.--is not the backlog. This is not backlog, but 
what it is is a, again, an evolving number. So what I am giving 
you now may change again. But what came out in our recent 
efforts is that the replacement value, the replacement value 
for all--if we were to go out and we want to replace 
everything, all our 17,000 facilities, and based off of the 
industry standard assets, it would be $23 billion, to be able 
to, again, replace it all. And to be able to make everything in 
perfect condition, to make everything--in other words, again, 
that is to replace it all.
    Mrs. Christensen. I have it.
    Ms. Mainella. To make it in perfect, at 100 percent--
remember that house example I gave you--it would be at this 
point $5.7 billion. Now again, that is without management 
decisions. Just like I showed you on the house scenario, most 
of us will not choose to do $5.7 because that is 100 percent 
and we are not--
    Mrs. Christensen. That would get everything in perfect 
condition?
    Ms. Mainella. Right. That is correct. And so what we do is 
then we manage from that. So we do have science now in place 
and we will make value decisions based off of those grading 
system. Again, it is a grading system.
    Mrs. Christensen. The Chairman has allowed me to ask just 
one more question. I would like to ask Director Clarke a 
question. In response to the Chairman's question, you indicated 
how you had set priorities in terms of land acquisition. I can 
see it was really well thought out, and I want to also applaud 
you for your commitment to including communities and to 
involving them in the development of the management plans for 
monuments, and I thank you on behalf of my community also for 
that.
    But in terms of the maintenance backlog, I can't imagine--I 
would like to hear how you plan to manage the maintenance 
backlog given that your maintenance budget is cut by $5 million 
from 2004. So it seems to me about a 6-percent cut in your 
maintenance budget. I was impressed with how your plans rely on 
the acquisition. How are you going to manage with that cut in 
your maintenance?
    Ms. Clarke. We are going to be using an approach that is 
really parallel to what Fran has just described, and so other 
than repeat that, let me give you some of the landmarks that we 
are looking to proceed toward. We are going to understand and 
complete condition assessments on all administrative and 
recreation facilities by the first quarter of 2005, by roads 
and trails by 2006, and dams and bridges by the fourth quarter 
in 2006.
    And then we go through a process of prioritizing these 
according to the urgency. Health and safety is always the top 
priority. So as we assess these and determine that we have an 
issue that threatens health and safety either of our public or 
of our employees, that moves to the top. So it is a constant 
prioritization. Again, it is one that we are very committed to.
    We also are finding that our partners have become wonderful 
assets to us throughout all of the BLM communities in the West. 
Because we often find ourselves in checkerboard patterns with 
neighbors on all sides and we are so integral to the lives and 
livelihoods of Western communities, they engage with us in very 
positive ways. And more and more, we are able to leverage their 
passion for the public lands into assisting us, and we also 
find that we can carry that into the maintenance area.
    So we are getting support on trail maintenance. We are 
getting support on facilities maintenance. And so we are very 
optimistic that we can responsible. There will be choices that 
need to be made, but I think we can assure public health and 
safety and that with this budget we can move forward and make 
progress.
    Mrs. Christensen. That is staying within the budget that 
you have given using your volunteers and your supporters--
    Ms. Clarke. Right.
    Mrs. Christensen.--but not going into any other budget.
    Ms. Clarke. Working smart, yes. Thank you.
    Mrs. Christensen. Thank you.
    Mr. Radanovich. Thank you.
    Before I pass on to Mr. Souder, I want to ask Fran 
basically a yes or no question. Is it useful to establish a 
number for maintenance backlog?
    Ms. Mainella. No.
    Mr. Radanovich. Thanks. Mr. Souder?

   STATEMENT OF THE HON. MARK E. SOUDER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Souder. Thank you, Mr. Chairman. I am sorry I am late. 
I was scrambling to read through all the testimony. I also knew 
the number one thing I wanted to focus on, and with Director 
Mainella in particular, and forgive me if any of this has been 
covered, but also as a member of the Homeland Security 
Committee in addition to this Committee, one of my concerns is 
that the new functions that are being added to the National 
Park Service are actually going to divert resources.
    One of the things I have already talked to several 
Appropriations Subcommittee Chairmen about, and I know it was 
in our Subcommittee's report, is to look at whether or not 
there could be, rather than tapping scarce National Park funds, 
looking at Homeland Security funds for what would amount to 
almost like a special forces or special SWAT team, not to 
divert existing park rangers who are already overwhelmed with 
all sorts of other challenges. So not necessarily to replicate 
the Forest Service, where they consolidate current people in 
the Service into this, but a supplemental force that if there 
is an orange alert or some kind of pressure that comes at 
Washington Monument or Ellis Island or Mount Rushmore, it could 
be deployed there without messing up the entire Park System and 
that that wouldn't be viewed as park funding.
    A second similar-type thing is I chair the Subcommittee on 
Narcotics that does drug policy in ONDCP and we have held a 
hearing down in Organ Pipe, where it seems like their big 
thrust right now is how not to be overwhelmed by illegal 
immigrants and narcotics traffickers.
    Ms. Mainella. Right.
    Mr. Souder. Trails are shut down. A park ranger was shot 
there at North Cascades, where we have basically right now 
Federal personnel in addition to your agency all over the place 
because of not being able to secure that border. Big Bend is 
extremely concerned. Padre Island is extremely concerned. 
Basically anyplace on the border, Glacier potentially could be 
as things move East, if we squeeze other parts of the border.
    I wonder what your reaction is to having, if the funding 
goes to another Department, those people would theoretically, 
at least, you pay so the piper picks the tune, to some degree 
report to those Departments. How would we, if we do that, 
reconcile some of the concerns about resource protection? 
Cultural parks are easier to understand than natural parks 
because some of the assumption was if it was inside the Park 
Service, you were deploying your own rangers and they would be 
more sensitive to habitat and other things, as well.
    This is a very sticky question but one that is very 
important in the funding cycle right now when you are, in 
essence, barely keeping up with inflation with huge new duties, 
if there is another terrorist attack, it could be catastrophic 
on how you have to divert resources.
    Ms. Mainella. Thank you for your sensitivity on this issue. 
This is a major issue for us with the law enforcement and 
security needs. We have been talking to Homeland Security to 
try to see if there is some way, particularly with our border 
parks and others, that we can work in greater partnership 
financially or otherwise. So those talks are underway, but so 
far, we have not been able to achieve that result, but we are 
working on that.
    As you are probably aware, we go to--this year, in fact, 
every time we went to Code Orange, it was an average of $55,000 
a day beyond which I have in my budget that we do encounter. At 
this point in time, it is a challenge for us. Just as our 
natural disasters, hurricanes and others, we send even our law 
enforcement out in those, you know, in our SED teams to go out 
to deal with some of those issues and all of those come into 
play, as well.
    But it really is something that I think we need to be able 
to work to further enhance our law enforcement capabilities, if 
there is a way to partner. We do work with the Border Patrol 
right now down--when I was down in Organ Pipe to look at that 
to see, after our ranger's death, to see what our issues were 
and what we could do to be able to further help down there. 
This is a major emphasis.
    We are putting in a wall, as you know, right now, and we do 
need to see if we can partner more with people like the Border 
Patrol and others, because our role is not actually supposed to 
be the borders. It is being once they come into the park is our 
responsibility. But when you have gone down there, you probably 
have seen there is not even a fence there in places. It has 
been moved to a rancher's land at times and things of this 
nature.
    I would look forward to working in partnership with 
Homeland Security on how we could better address some of these 
issues.
    Mr. Souder. We will continue to work with you as we go 
through this process, and with the Chairman and others. But I 
also want to express concerns about whether Homeland Security, 
when they go to orange and other alert levels, whether they are 
uniformly doing it or they are doing a better job like they are 
on bridges and other things of saying, look, every park isn't 
at risk for this stuff. We have kind of had this nonsense going 
around the country, but we are getting better at doing that and 
we need to do that in the Park Service, as well, a 
prioritization of which things are actually likely risk targets 
and how much versus kind of second-tier copycats who aren't 
going to be as sophisticated, what type of risks, and we need 
to get some risk assessments in.
    I don't believe that capability, while it can be done to a 
degree inside the Park Service, was the intent of the Park 
Service, and if you start to reorient your mission too much 
when you are already budget squeezed--and one last comment on 
the maintenance backlog. I am one who again this year will push 
for additional dollars for the National Park Service because I 
am not convinced that you are reducing the maintenance backlog 
at a faster rate than it is being added, because it wasn't a 
number that stays fixed at the beginning. It is something that 
even the things that you repair start to deteriorate again, and 
if we don't have adequate--if we are barely keeping up with the 
additional park expansions, the new expectations, and the cost 
of inflation, it isn't picking up the backlog.
    I am pleased at least the Park Service is getting more than 
many other discretionary funding, and I appreciate that out of 
the President. But we have to reconcile in Congress that we 
can't keep promising the American people that we are going to 
do something and then not do it, and we have to have some real 
hard prioritization.
    Ms. Mainella. I think before you came in, we did talk also 
about the fact that we have really worked hard to try and not 
allow ourselves to get back into a hole again. We have more 
than tripled with the 2005 budget request our cyclic 
maintenance, which is the preventive maintenance. So we are 
trying to get so we are building so we don't fall into that 
hole again.
    Also, we have nearly doubled our commitment on dealing with 
maintenance and deferred issues. It just, as you say, they 
certainly still continue to evolve and that is why there 
actually is no real number for backlog. It always is an 
evolving entity and it is where we have to constantly keep it 
on our radar screen. The good thing is that for the first time 
ever, we actually know what we have. We know--we have been able 
to understand what condition it is in.
    It was amazing to me, as I said earlier, that we didn't 
know that before, and we are actually able to give a science to 
our staff. Our superintendents now actually have a tool to work 
with and make value decisions with science instead of just, 
well, this would be nice or that would be nice.
    Mr. Souder. Thank you.
    Ms. Mainella. Thank you.
    Mr. Radanovich. Thank you. Ms. Bordallo?
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    My question is directed to the Director, Ms. Mainella. As 
you know, Guam is home to a unique national park, one that 
honors the bravery and sacrifices of all those who participated 
in the Pacific theater during World War II. The park was 
established in 1978. It is very important to our history and 
offers visitors the opportunity to learn about the events that 
led to the outbreak of the Pacific War, the occupation and 
liberation of Guam and the role the Mariana Islands played in 
the defining war of the 20th century.
    Sadly, the War in the Pacific National Historical Park 
Visitor Center located in leased property was destroyed as a 
result of a super typhoon. The leased building housed the 
park's visitors' center, the museum, the contact facility and 
administrative offices. Despite the significant loss, I want to 
commend the professionalism of the Park Service's employees on 
Guam, for they have carried on with the mission of the park in 
a very, very small maintenance building.
    Now it is 14 months later and we are still in the same 
situation. We are preparing for the 60th anniversary of the 
liberation of our island. We expect thousands of visitors. 
There is no visitors' center or museum that stands to greet and 
educate the visitors to the War in the Pacific National 
Historical Park. Furthermore, there is no adequate space for 
park employees.
    So I want to register this concern today with you and the 
Committee. Maybe you can speak to this issue. What does your 
proposed budget hold for the War in the Pacific National 
Historical Park on Guam? We have heard a lot about the deferred 
maintenance and the backlog, but this is a priority to me. This 
cycle, Fiscal Year 2005, is where I believe we need to address 
this situation, and I would appreciate your working with me to 
see that Guam's park isn't lost and overlooked in the budget 
process.
    So can you comment on this? Does your budget contain 
anything for us? And furthermore, I would like to extend an 
invitation for you to visit our island and see the tragic 
situation that we are in.
    Ms. Mainella. I am very familiar with the situation. I am 
sorry I have not had a chance to visit Guam, but I know the 
Secretary was just out there, Secretary Norton.
    Ms. Bordallo. Yes.
    Ms. Mainella. And she, too, is aware of the concerns and we 
are trying to address, and I am going to ask Bruce Sheaffer, 
our comptroller, to speak to what we have in the budget where 
you might not be able to pick up what we are trying to do. 
Bruce, could you help me, please?
    Mr. Sheaffer. I would be glad to. The combination of storms 
last year caused us to--we developed a list including, of 
course, the replacement for the visitors' center in Guam, a 
list that totaled some $150 million. We have prioritized the 
highest priority $50 million of that in order to get parks open 
and operating again, and included in that is the money to 
replace that visitors' center.
    You will see--and that work should be underway, at least 
the planning portion of that work should be underway now and we 
are making that money available through a little known 
provision in our annual appropriation that allows us to borrow 
funding for emergencies, for such emergencies. And you will see 
an item in the 2005 budget where we are paying ourselves back 
for the amount that we are borrowing from the construction 
account. This is a construction item in the amount of about $2 
million. So we have made that money available, Congresswoman.
    Ms. Bordallo. So it will be a permanent building, then, no 
longer leased?
    Mr. Sheaffer. They are making such arrangements, as I 
understand.
    Ms. Bordallo. That is right. And you know, you have to 
build very strong on Guam. We have to build with concrete and--
    Mr. Sheaffer. A lesson learned, I think.
    Ms. Bordallo. That is right. Thank you. Thank you very 
much.
    Mr. Radanovich. Thank you very much.
    Mr. Bishop?

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you. I appreciate the opportunity to be 
here. I apologize, as usual, for being late.
    To all of you, and especially to the great new Director we 
have at BLM, I want to say I am appreciative of everything you 
are doing, and any question I ask, I don't want it to imply 
that I have anything but the highest regards for what you are 
doing. The actions and the attitudes of the Interior Department 
have been marvelous and I appreciate the cooperation.
    Ms. Clarke, the question I am going to ask is something 
that is actually outside of the realm of your ability, but 
since you have ties to Utah indirectly, you understand the 
situation out there. I think we can put a numerical value on 
what has happened to education funding with States that are 
heavily controlled with public lands versus those in the East 
that are not, and we do not fare well in those regards, and 
especially a State like Utah, which has such a high proportion 
of students compared to the number of wage earners and 
taxpayers.
    We have a couple of programs that are out there. In 
addition to that, also it becomes PILT payments, which are 
extremely important to counties which have a great deal of 
public lands and have service, people who use those public 
lands, and yet have very little private land in which to base 
their county payments. So PILT becomes extremely important and 
we still have yet to fully fund what even could rationally be 
called fair payments to those counties that have to provide 
those services without the reimbursement.
    I recognize, and I am specifically looking at the land 
acquisition increases in budget, and I realize that those 
decisions as far as PILT are often not on your desk but higher 
up. But if you could just talk philosophically about, and I am 
giving you these just way out, about the tradeoff between land 
acquisition to increase the inventory of public lands we have 
when already we are underfunding the Payment In Lieu of Taxes 
to counties and obviously the education in the Western States 
are seriously being hampered in their ability to fund it 
adequately because we don't have an adequate land tax base.
    Ms. Clarke. Congressman, being a daughter of the West, I 
fully appreciate the predicament that you have described, the 
challenges to Western States who, unlike Eastern States, were 
not allowed to take ownership of a great deal of the land 
within their borders. That certainly limits the economic 
opportunities in those States. And so I am absolutely very 
sensitive to the partnership that needs to exist between public 
land management agencies, particularly the BLM in the West and 
State and local governments.
    You are correct that the decision on funding on PILT did 
not sit at my desk, and yet I know that it has been a matter of 
great importance to the Secretary and I know she has been 
moving to increase funding in that program.
    I will remind you that both the President and the Secretary 
made a commitment for full funding of the Land and Water 
Conservation Fund. A small portion of that in the BLM budget is 
earmarked for acquisition. And again, as I described before you 
got here, we would certainly be looking at using that portion 
of the Land and Water Conservation Fund for very discrete 
acquisitions, such as inholdings, access for appropriate uses 
that often communities request, and for acquisitions that 
complement existing conservation areas or that communities have 
requested.
    There are always tradeoffs in budget decisions and this 
certainly is reflected in this one. We believe that--I can 
assure you that we are very committed to being very responsible 
about the acquisition program. Certainly an agency that manages 
one-fifth of the West could be questioned for the need to have 
any more land, but let me assure you we are also seeking to 
augment our utilization of disposal authorities.
    I think many of you are aware of the disposal actions in 
Nevada under the unique authorities that exist there and the 
benefit that that program has been to not only the communities 
of the Las Vegas area particularly, but the budget of the State 
of Nevada.
    We also have authority under the Baca bill which allows us 
for the first time, when we have identified lands for disposal 
to retain those receipts for other appropriate uses at the BLM. 
We are working with the Committee to try and expand those 
authorities so that we can add to the inventory of lands that 
are eligible for disposal. One of our priorities is to look for 
disposal opportunities that enhance the needs--that serve the 
needs of the community and enhance their opportunity for 
economic improvement, for the enhancement of the rural 
economies in the States.
    So it is a constant challenge. There are many tradeoffs. I 
assure you that we are sensitive to that and look forward to 
working with you and with other members of the Committee to 
hear your ideas on how we can move forward to meet those needs 
of education and other economic issues that face the Western 
States.
    Mr. Bishop. Mr. Chairman, if I have just a moment left--I 
don't have a moment left. You don't care?
    [Laughter.]
    Mr. Bishop. No, this will be the end of it. First of all, I 
appreciate that and I understand the dilemma in which you find 
yourself. I just hope that you will also be understanding if 
some of us who are in the Western States look at acquisition 
and expansion of those areas very carefully until PILT funding 
and education funding is an adequate level in our particular 
States.
    May I also just say one thing personally, because I know 
you get a lot of criticism from things that are going on and 
also people in the field. There is one other particular area 
that does not necessarily have to do with resources but hits 
upon resources. In some of the military installations in my 
district, they are extremely important to me, and I just want 
you to know that the BLM personnel on the ground in those 
particular areas in Utah with whom I have been working to try 
and find some encroachment solutions have been marvelous. They 
have been extremely helpful. They have understood the 
situation. They have been very sensitive to both the needs of 
private land owners as well as to the military as well as to 
the resource people in our community, and at least for this one 
time--it may be the only time I congratulate you, but this one 
time--
    [Laughter.]
    Mr. Bishop.--you have some really good people and I want 
you to know that they were extremely helpful and I was very 
positive and pleased with the attitude which they brought to 
the table as we had those discussions.
    Ms. Clarke. Thank you.
    Mr. Bishop. In the meantime, we will talk about grazing at 
another time when it is convenient for you.
    [Laughter.]
    Ms. Clarke. Anytime. Thank you.
    Mr. Radanovich. Thank you, Mr. Bishop.
    Mr. Grijalva?
    Mr. Grijalva. Thank you, Mr. Chairman.
    Some general questions, and first of all, let me concur 
with my colleague on the unique and demanding situation that 
our parks find themselves along the border, Organ Pipe being 
the specific example, Cabeza Prieta, et cetera. As you were 
speaking, it struck me that I really believe that there has to 
be a concentration of effort and resources in that area, both 
on the enforcement side but also, I think, because of the 
damage that has been done and continues to be done, the vehicle 
barrier that is going in, the increased requests by Border 
Patrol for more activities and more access into those parks.
    This is a national policy and I think that policy, while we 
can debate the right or the wrong of it, and I think it is 
wrong, but it is there now, and I think there has to be within 
this budget real efforts and resources for restoration and 
enforcement that aren't there now. We will be submitting to the 
Chair specific questions about those parks and await your 
response on that. If there is a comment, that is fine, but that 
was just in concurrence with the other comments that were made.
    Ms. Mainella. Thank you, Mr. Chairman. The only comment 
would be just that these are very important to us, and as I 
said, we have $12.4 million in our budget for law enforcement. 
Bruce, if there is anything else that we--I know we will 
continue to work on a lot of the prevention areas. In fact, we 
are going to go down to Tucson for the National Leadership 
Council meeting in April and will be heading on down to 
probably Coronado and others to take a look at some of what is 
happening in those areas. I have already been to Organ Pipe, as 
I indicated earlier, but I want to have a better understanding.
    We also have created a, and she is here today, Karen Taylor 
Goodridge, a position on our leadership team which is an 
associate for visitor and resource protection. It did not exist 
before September 11. That is a position we have added, and 
particularly she has spent a lot of time dealing with border 
issues.
    Mr. Grijalva. Let me follow up, if I may. The vehicle 
barrier, the cost for that is incurred by your agency or by 
Homeland Security?
    Ms. Mainella. By us. It is in ours.
    Mr. Grijalva. So you are shifting funds that could be 
impacting restoration and other issues?
    Ms. Mainella. Yes, sir.
    Mr. Grijalva. I think that is an appropriate Homeland 
Security cost, but that is for another time and another place.
    Let me go to, if I may, Director Clarke, more of a comment. 
I think last year, BLM announced plans to revise its 
regulations on the Federal grazing program. I have some real 
concerns about the improvement aspects. I think it opens up a 
can of worms for property right disputes down the road. I have 
some concern about the public participation on those, as to 
where much of it is being eliminated, and the monitoring of 
environmental damage, where now we are going to wait up to 7 
years for corrective action on some of those. Like I had stated 
earlier to the Chair, I will be submitting those specifically 
in questions because I am very troubled by those and I think it 
opens up our public lands to many more disputes than we think 
we are resolving.
    But the specific question to both agencies has to do with 
one thing and that is the outsourcing initiative that has been 
going on. What has your agency been required to spend to study 
potential outsourcing of jobs within your Department? What are 
the status of these studies? And has this process at this 
point, that you can share with the Committee, produced any 
evidence proving what the potential cost savings would be from 
outsourcing? Either one of you or both.
    Ms. Clarke. We have done one major study and numerous 
smaller studies at the BLM regarding outsourcing, and to date, 
almost all of the work that we have studied has remained 
inhouse. We are waiting for the final report on the one large 
study that was done on maintenance operations in Oregon that we 
have yet to have a final resolve there.
    So we have not--what the effort has done is, I think, 
helped highlight to us opportunities for more efficient 
operation. I think it has made us focus on ourselves and make 
sure that we are working smart and that we are working 
effectively, and so there have been some benefits.
    This year, we are going to be looking at the mapping 
function at our science center in Denver and that is a 
relatively small study. Is it 12 positions? Just 12 positions. 
We have requested about a half a million dollars to go through 
that study.
    The Department, I think, is taking a new look at the whole 
competitive sourcing activity and trying to make sure that it 
is focused, that it is more strategic, that it complements our 
human resource planning initiatives, workforce planning, and so 
that it is weaving into the bigger picture of making sure that 
we are doing succession planning and that we are capitalizing 
on those opportunities to perhaps look at the best 
opportunities to do some outsourcing rather than have it so 
random.
    So it is in our budget this year. There is a request, but 
it is not a major activity that we are undertaking this year.
    Mr. Grijalva. Thank you. Something you know already, on 
those 12 positions, we are looking at a study of $40,000 per 
job and the issue of priorities.
    Ms. Mainella. The National Park Service has been able to 
look at competitive sourcing through the new revised circular 
that has come out that has allowed us, instead of actually 
going to competition against the private sector immediately, we 
are doing what is known as competitive review involving what is 
allowed in the circular, preliminary planning, which is good 
management, good management. You should look at what you do on 
a regular basis.
    So what we are doing at this point, and we have a number of 
parks, the Great Smokies and others, Golden Gate, that are 
looking at how they compare themselves with how they are doing 
their business, analyzing their management, and being able to 
have a consultant that works with them that does look at the 
private sector.
    But it doesn't go to actual private sector competition 
until we have looked over all the efficiencies. My belief is 
our employees are so outstanding that we will be able to find 
ways to continue to improve ourselves, but not necessarily 
always have to plan to have bids even come in from the private 
sector.
    Also, just a bit of information and I think it will 
probably be surprising to many, is that the National Park 
Service today, and it has been this way since 1916, I believe, 
but I think probably more enhanced, is 56 percent private 
sector now, only 44 percent of Federal employees. And when you 
look at that 56 percent, that is volunteers, that is the 
concessions that are in our parks, that is our cooperating 
associations. Those are the contracts we already do. We do a 
lot of contracting out for work in our parks. Almost all our 
construction is done through contracts, as well as students and 
others that come into our parks.
    So we are already quite involved with working with the 
private sector, so this preliminary planning just makes sure 
that we are doing things as efficient and effective as 
possible.
    Mr. Grijalva. Thank you. Mr. Chairman, thank you. Just an 
observation. There is no funding in any of the budgets for the 
outsourcing initiative, so every agency has to take that from 
its own operational budget which impacts some of the things 
that we are talking about here.
    Ms. Mainella. I do think that our budget has almost a 
million dollars in it--Bruce, I will be asking you for 
clarification--for looking at the competitive reviews, so--
    Mr. Grijalva. OK.
    Ms. Clarke. Let me also just make one clarification. Mr. 
Benna brought to my attention that the 12 employees that we are 
reviewing in Denver right now is for 2004. I will let Larry 
explain to you what the budget request is for 2005 and how that 
would be used in the competitive sourcing area.
    Mr. Benna. Thank you, Kathleen. Yes, the 12 FTE that we 
will be studying is related to a mapping and charting function 
that is specific to our science center in Denver. The cost of 
that is somewhere in the neighborhood of $3,000 per FTE or 
thereabouts. In 2005, we have a $570,000 request to support 
outsourcing, competitive sourcing studies. We are expecting 
that by the time we get to 2005, we will have spent time in 
2004 to do what Director Clarke has said, to develop a more 
strategic approach to how we do this, to build in workforce 
planning and some of the challenges we have with an aging 
workforce, skill mixes, and things like that. So in 2005, we 
have $570,000 which will be used to study probably considerably 
more than 12 FTE, so the cost per FTE is considerably less than 
the $40,000 that was suggested.
    Mr. Grijalva. Thank you. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Grijalva.
    Mr. Udall?

STATEMENT OF THE HON. MARK UDALL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Mark Udall. Thank you, Mr. Chairman. I want to thank 
Directors Mainella and Clarke for taking time to be with us 
here today. I wanted to direct some questions to you, Director 
Clarke, but I want to also thank Director Mainella for the 
great work of the Park Service--
    Ms. Mainella. Thank you, sir.
    Mr. Mark Udall.--and associate myself with the remarks of 
Mr. Souder. His son, incidentally, has worked for the Park 
Service, as you may know, and I think he has added additional 
enlightenment to Congressman Souder's points of view, although 
he already has religion and he knows how important the parks 
are. I had an opportunity to interact with his son in Rocky 
Mountain Park and you have a great team there with 
Superintendent Baker--
    Ms. Mainella. Thank you so much.
    Mr. Mark Udall.--and Randy Jones did an excellent job 
before Ron Baker.
    Ms. Mainella. Thank you.
    Mr. Mark Udall. I did also just want to add a comment to 
Congressman Grijalva's line of questioning, which is I was 
trying to think of an appropriate way to characterize this, but 
the cohort of the National Park Service has, as you point out, 
been in place since 1916 and there is a unique element of pride 
and commitment, particularly in interpretative staff and the 
full-time rangers.
    When I hear people talk about we have to look at what we 
can do in terms of privatizing or outsourcing those functions, 
it is a little bit to me like saying the Marines are doing the 
job and we have to get a new kind of person to be a Marine 
instead of saying, what do the Marines need to be even more 
effective?
    Of course, you know my bias given my family's involvement 
with the Park Service and our deep commitment to the Park 
Service, and as Westerners, the important role that the 
National Park Service plays, not just in our quality of life, 
but our economy. So I just wanted to make that point.
    Ms. Mainella. Thank you, sir.
    Mr. Mark Udall. Director Clarke, I want to talk about one 
of your favorite subjects, if I might, which is RS-2477, and--
    Ms. Clarke. Congressman, I have to interrupt you because I 
have been recused from addressing RS-2477. I have not been 
involved in any of the discussions at the Department and 
continue to be recused because I was so distinctly involved in 
it when I was Director of the Department of Natural Resources 
in the State of Utah.
    Mr. Mark Udall. That is fair enough. Is there anybody in 
your Department to whom I could direct some questions through 
the Committee?
    Ms. Clarke. Absolutely. My Deputy for Policy and Programs, 
Mr. Jim Hughes, has been handling that. I would be happy to 
direct him to contact your office to get those questions, or if 
you want to direct them to my office, I will get them to him.
    Mr. Mark Udall. Mr. Chairman, if I could submit those 
questions to the record--
    Ms. Clarke. We will make sure they are addressed.
    Mr. Mark Udall. I would appreciate it.
    Ms. Clarke. I apologize that I cannot answer those 
questions.
    Mr. Mark Udall. No, I understand and I will take the 
opening just to make the comment that I think you were doing 
what you believe you were required to do, but I do think that 
the GAO letter that was recently released is cause for us all 
to pause and step back. And I do think a national policy needs 
to be forthcoming from the Congress, and I am hoping to work 
with Congressman Bishop and Chairman Pombo and others to see if 
we can't move some legislation based on the 1998 resolution 
that the Congress passed, which said that the Department of 
Interior as well as the Forest Service couldn't move ahead with 
resolving these claims until the Congress had weighed in. So 
that was going to be the line of my questioning.
    If I might, let me then move to the Healthy Forests 
Initiative. I noticed in your testimony you talked about 
thinning projects, and I am glad to see we are going to begin 
that process. I hope we can build some trust, particularly the 
projects in the so-called red zones with which we are all very 
familiar.
    You talk a little bit about Oregon in your testimony. Can 
you tell me, outside of Oregon, what would the budget total be 
for thinning projects to reduce wildfire risks?
    Ms. Clarke. Let me ask Mr. Benna to give you those specific 
numbers. He has got them with him.
    Mr. Benna. Congressman, I don't have a specific total. Our 
public domain forestry program is funded at about $9 million. 
This represents an increase of about a million dollars over 
last year. Most of that money is counted against the Healthy 
Forests Initiative and will be used for improving the health of 
the forests, thinning projects and other types of activities.
    Ms. Clarke. We do not have huge acres of forest. Of course, 
most of that is managed by the Forest Service and the 
Department of Agriculture. Most of the forest holdings we have 
are in the Oregon and California lands in Oregon. Certainly 
those we have are important and we remind ourselves often that 
I think the Healthy Forests Initiative also is expected to 
address issues of range health, and so we will also be looking 
to improve range conditions.
    Mr. Mark Udall. I think we all understand that range fires 
can be as destructive in their own way.
    Ms. Clarke. Absolutely.
    Mr. Mark Udall. So if I could--Mr. Benna, you don't have an 
absolute number, because then I wanted to back into that 
number, given that we are saying we are going to spend half our 
resources in the red zones, what that total would be, as well. 
Can you get those numbers to the Committee?
    Ms. Clarke. We would be pleased to get those numbers for 
you.
    Mr. Mark Udall. And if I could, I see my time is beginning 
to expire here, also the number for Colorado would be helpful 
to me.
    Ms. Clarke. We will get that for you, as well.
    Mr. Mark Udall. I know that we have pinion juniper 
woodlands in particular that have their own unique ecological 
characteristics and--
    Ms. Clarke. And that certainly is an area of important 
focus for the BLM. We will get you those figures.
    Mr. Mark Udall. Mr. Chairman, I see my time has expired, 
but I have some more questions. I would like to ask unanimous 
consent that the hearing record remain open so that the members 
could ask additional questions.
    Mr. Radanovich. There being no objection, we will keep the 
record open for 2 weeks.
    Mr. Mark Udall. Thank you.
    Ms. Clarke. Thank you.
    Mr. Radanovich. Thank you, Mr. Udall.
    Director Mainella, I have a couple more questions of you, 
and also you, Ms. Clarke, regarding the national parks. How do 
you reconcile a fully funded Federal accounting of the Land and 
Water Conservation Fund with the Administration's policy 
recommending the Subcommittee defer action on bills that would 
authorize the boundary expansion of a park or, say, the 
establishment of a new unit to the park system? There seems to 
me to be a dichotomy there.
    Ms. Mainella. I think that it is really important for us to 
stay focused again, and you saw the increase of us nearly 
doubling our efforts to address our maintenance issues and 
making sure our parks are in good, or acceptable condition. And 
as long as we are trying to do that, it is difficult to add new 
parks on or add new additional financial responsibilities.
    Now, we do look at boundary adjustments on a case-by-case 
basis in the sense of the impact that might come forth from 
some of those--if it is one that is not going to have a major 
financial impact. It goes back to our operations needs and the 
fact that we need, a park needs operational dollars, and as we 
add new parks, it means those operational dollars, if we don't 
have new dollars, get stretched further and further.
    That is why I was pleased the 2005 does have some new 
dollars in there for Flight 93 and some other areas, but as we 
add new parks, it really is difficult on operations to be able 
to take on those responsibilities without having some 
additional funding.
    Mr. Radanovich. Thank you. Also, Director Mainella, on 
behalf of Congressman Walter Jones, could you please address 
the following question. With respect to the Fiscal Year 2005 
budget, what specific actions will the Service be taking toward 
repairing damage to Cape Hatteras and to Cape Lookout National 
Seashore as a result of Hurricane Isabel?
    Ms. Mainella. Again, I think Bruce addressed that already a 
bit, but I am going to reemphasize that we had about 100--well, 
including Guam and all the destructions that we have had with 
storms, about $150 million worth of damage. We are now going 
after approximately $50 million that we are working through, as 
Bruce had defined, where we kind of borrowing against our 
construction in hopes that in 2005, I think, we are looking to 
put more money back in and replace that we have borrowed 
against to be able to do improvements.
    We did make substantial improvements because we were able 
to have our Centennial of Flight. We have done quite a bit of 
repairs and we are continuing to move on that effort. But we 
would be glad to follow up with Congressman Jones for more 
detail if he has got specific areas that we could address.
    Bruce, do you have any other follow-up, or did I cover 
that?
    Mr. Sheaffer. You covered it well. Mr. Chairman, there are 
monies in that $50 million that are going to both those areas 
and I can certainly provide details for the record as to what 
those would be.
    Mr. Radanovich. Yes. Thank you very much.
    One final question, and I know that we talked a little bit 
as far as national parks and the impact of homeland security 
and the additional cost to it.
    Ms. Mainella. Right.
    Mr. Radanovich. I myself in Yosemite share some frustration 
with the fact that we are bragging or stating that there is an 
increase in funding for particular projects or in general going 
to Yosemite National Park when a lot of it can be eaten up when 
the threat level nationwide goes up one color. So with that in 
mind, I would ask this question relating to that.
    The Service in 2005 proposes and FTE increase of 36 for the 
U.S. Park Police from 2004. However, it is my understanding 
that the general inability of the Park Service to reprogram 
monies within their budget has been a major hurdle in 
addressing the goal of greater FTEs. If the nation's threat 
level were elevated to orange for any significant amount of 
time, how can you be sure that the funds allocated to FTEs will 
not be absorbed into general operations?
    Ms. Mainella. We do have a directive that we do give 
priority called No Net Loss, where we make sure we keep our 
focus on law enforcement and that those positions are filled 
first. Now, there is obviously going to be times where, though 
my regional directors are coming all the way to Washington, 
where we have a very small part. You do still have to have 
somebody that opens the doors and keeps things rolling along.
    But we have put a high priority on law enforcement issues 
so that it is the first positions we are supposed to be 
filling, and so those dollars--we have also separated out the 
budget dollars, so we track those for law enforcement and make 
sure that they stay addressing what they are supposed to be 
addressing.
    Mr. Radanovich. Is there any way--my concern, too, is 
although obviously homeland security is the top priority 
issue--
    Ms. Mainella. Right.
    Mr. Radanovich.--you hate to see money going away from good 
projects to have to cover this threat level. Is there a way 
that that can be prevented and is there a way that you can more 
accurately ensure that money goes to projects, still given this 
liability of homeland security and any instance where the 
threat level can be raised and cost additional money? Do you 
have any way of still preserving money going toward projects 
and not in that direction if need be?
    Ms. Mainella. I will give my first shot--
    Mr. Radanovich. Any suggestions?
    Ms. Mainella.--and then ask Bruce or anyone else. I think 
at this point, it is very hard for us. When we go to Code 
Orange, it is a mandatory--we don't have flexibility in making 
decisions. We have to send certain people to certain locations, 
particularly our icons. And in doing that, as soon as that 
happens, without having a fund that addresses that in some way 
regularly, all we can do is shift dollars from other locations. 
But I will turn to Bruce to ask how we have been doing it.
    Mr. Sheaffer. In an ideal situation, Mr. Chairman, we would 
have some funding source that didn't affect forest operations 
to deal with these emergencies. But given we don't--
    Mr. Radanovich. It doesn't happen.
    Mr. Sheaffer.--we are forced to internally reallocate to 
handle Code Orange in particular, and I will say this--
    Mr. Radanovich. Can you also, excuse me, Bruce, but while 
you are talking, let me know, too, who decides when the money 
goes toward that.
    Mr. Sheaffer. Well, to get into details, I should let our 
Chief of Law Enforcement handle that question, but let me say 
this much about the way we handle the funding--
    Mr. Radanovich. Go ahead.
    Mr. Sheaffer.--and then we can move on, if need be. When 
the call comes in, the Code Orange comes, we have protocols in 
place that send teams out that are fundamentally spending money 
by overtime travel and per diem and the like to cover the--to 
provide the higher-level security at the icons, at the major 
icons. We allow those individual parks to capture those costs 
and we find ways that do not impact their immediate budgets to 
deal with that.
    Now, since 9/11, we have been attempting to boost the 
budgets of those icons in order to raise their availability of 
permanent staff and have done so significantly. In fact, out of 
$80 million we have received since 9/11 for park operations, a 
full half of it has gone for law enforcement and a significant 
portion of that to the Statue of Liberty, Independence, 
Washington, D.C. area, and the other icons.
    Mr. Radanovich. OK. Thank you.
    Speaking of icons, Fran, when are we going to open the 
Statue of Liberty?
    Ms. Mainella. As you know, Mr. Chairman, we have been 
working on assessing the options of what it is going to take 
for us to make sure that that is a safe condition and also one 
that will be enjoyable for everyone.
    We right now, I just want to remind everyone, the island is 
open and we have actually two million visitors right now a year 
visiting the island. We do not have a date set yet at this 
time, but we are working toward different options of 
consideration. It is not just a financial issue, it is a 
security-related issue so that there is, going back to when we 
were talking maintenance, you have to do a management decision 
to understand where we are.
    I certainly would invite you or any of the members of the 
Committee to go out with us sometime to the Statute to take a 
look at what items we are having to evaluate.
    Mr. Radanovich. Thank you, and we will be going up shortly 
to do just that. Thank you.
    Ms. Mainella. Thank you, sir.
    Mr. Radanovich. Director Clarke, if I may, the Fiscal Year 
2005 budget increased the wild horse and burro account by $10 
million. Can you tell me what that money is going to be used 
for?
    Ms. Clarke. The request for an adjustment in our budget to 
put an additional $10-plus million into wild horse and burro 
programs would be used basically to get the program funded to a 
level to be successful.
    We right now have a budget of about $29 million. We have 
about 19,000 horses in long-term care, which means that we are 
spending $1.33 a day to feed and care for those animals, and we 
have no choice but to do that. That means that a good portion 
of our budget is committed and we have very little budget left 
to manage the challenge of the horses on the range.
    The population on the range right now is about 39,000 
horses. Ideally, it should be about 25,000 horses. The problem 
with leaving the horses on the range and allowing them to 
continue to reproduce is that they affect range health. They 
affect riparian areas. They challenge our ability to continue 
grazing because they compete for forage with cattle. They cause 
a lot of destruction if they are out of proportion and out of 
management scheme.
    So we have a very firm commitment to get the wild horse and 
burro program down to those appropriate management levels, but 
we simply do not have the money to meet that objective. What 
the funding request would do, would allow us to very swiftly 
get those populations under control. If they are not under 
control, the horses normally reproduce at the rate of about 20 
percent a year. So if we do nothing, the population grows 
tremendously and we are losing ground right now. We are not 
gaining on this.
    We are kind of at a juncture. We have been gaining on the 
population, but this year, we are not able to gather all the 
horses we want because we are short on money. So if we leave 
them out there, they are, like I say, at risk from damaging the 
resources. We also, with drought, may see some of them start to 
die. There are challenges to this program. The money basically 
would be used to get us into balance so that we have a 
successful program.
    Our ultimate goal would be to have the horses on the range 
reproducing at a rate that if we gather the 20 percent increase 
a year, we can adopt the 20 percent that we gather so that we 
have a static level of horses coming in and going out. 
Ultimately, if we can get there over time, we think we could 
reduce the amount of money needed to run that program. But 
right now, we have to beef it up to get to a point where the 
program is manageable and something we can all feel good about.
    Mr. Radanovich. Thank you very much. One last question. 
With regard to your budget and backlog maintenance, does the 
BLM use the Cooperative Conservation Initiative and the funding 
through that program? Is that applied to backlog maintenance as 
well?
    Ms. Clarke. Not directly--
    Mr. Radanovich. OK.
    Ms. Clarke.--but as I indicated earlier, we may have 
opportunities for trail maintenance, where there are 
partnerships that will come in and assist us, but that would 
not typically be through the CCI money. Those would just be 
goodwill partnerships with folks who are committed to trails. 
But there may be some projects that we jointly enter into that 
have a conservation focus or a recreation focus that we are 
making grants to communities and to other partners to assist 
them in taking the lead on some of those initiatives that 
benefit BLM land and possibly some adjacent partnership land.
    Mr. Radanovich. Very good. Thank you.
    Ms. Clarke. Thank you.
    Mr. Radanovich. Mr. Souder?
    Mr. Souder. First, I wanted to ask, I have a brief 
statement to submit for the record.
    Mr. Radanovich. Certainly.
    [The prepared statement of Mr. Souder follows:]

 Statement of The Honorable Mark Souder, a Representative in Congress 
                       from the State of Indiana

    I would like to thank Directors Mainella and Clarke for being here 
today, and for testifying before the subcommittee. I do have a couple 
of concerns regarding the National Park Service budget.
    Although the maintenance backlog in the parks has received greater 
attention and increased funding over the last few years, the funding 
allocated to address the problem remains inadequate. I believe that the 
NPS and the Administration should allocate additional resources to 
address the backlog. As long as funds only trickle down the pipeline, 
the backlog will continue to be a problem. The structures and 
infrastructure will only deteriorate further unless a concerted effort, 
coupled with increased funding, works to restore them.
    I realize that funding is tight, especially this year, but 
shortchanging the NPS now will only result in escalating costs in the 
future. I would also like to add that as the National Park Service adds 
additional units and therefore addition maintenance duties, the 
pressure on already scarce resources will increase.
    My second concern has to do with security in the National Parks. As 
a result of September 11, security concerns are paramount. This is no 
less true for the National Park Service. Because many of our national 
parks, such as Organ Pipe and Cascades, are located in border areas, 
additional measures to monitor these border crossings is necessary. Due 
to the remote nature of some of these areas, an determined enough 
person or group could enter the United States without being detected.
    I am pleased that the NPS has asked for additional Park Police 
funding to address security within the parks. I am concerned, however, 
that the NPS must devote is already scarce resources to Homeland 
Security measures. I would like to see the Department of Homeland 
Security take a greater role in securing the parks.
                                 ______
                                 
    Mr. Souder. I have some additional questions for the Park 
Service which will be along these lines, so you have a heads up 
and will work with the staff to try to--because you have 
addressed some of them in the homeland security follow-up that 
you just did, but what type of targeting information that you 
get for equipment and for staffing, how you work with the 
superintendents to get it bottom-up in addition to top-down, 
how much of this is coming from the Department of Homeland 
Security and others versus how much you are generating on 
presumably the limited information, and actually how much 
information do they share and when do they share it.
    I would really like to the degree by park, if we can get 
that, and if we don't want to put it in the record 
individually, how you work at the different parks with Homeland 
Security, with DEA, with other relevant agencies, and where 
there are questions that they aren't, where the resource 
questions would become greatest in the sense of the challenges. 
For example, along the border, often there is a mile strip 
where they have, a couple miles where they have flexibility, 
and then it transfers to the park as you go inland and it is 
the border-type questions.
    And then the broader question that there have been 
questions about law enforcement rangers and adequacy of police 
training for a long time, that this is really heightened. That 
problem existed prior to 9/11 and the professionalization of 
the force. On the other hand, where that line becomes a kind of 
regular law enforcement training where you would have low-level 
watch if somebody is doing suspicious behavior, that it is a 
tip as opposed to highly specialized training and where the 
Park Service sees that crossover. Are you going to have special 
units? Are you going to call in special units? At what point 
does that occur?
    This isn't likely to go away short-term. In fact, it is 
likely to expand from the few major icons to the others, and 
this is potentially--if we get a $120 million--I guess last 
year we wound up with about $60 or $70 million boost-up in the 
budget and then half of it goes to Homeland Security, we are, 
in fact, not really boosting the budget. It is just going for a 
new challenge.
    A second point, I wanted to thank you for your statements 
on privatization. I have long argued that you are probably the 
most privatized part of the Federal Government. At the same 
time, you are held in the highest esteem, your workforce is, in 
that we have had a--as somebody who has backed privatization in 
studies all over the place, there are some areas where it 
becomes a demoralizing process if you don't. The final language 
worked through some of this what you called competitive review, 
but I remain concerned that good management practices are good 
management practices. You ought to always be training and 
reviewing--
    Ms. Mainella. Exactly.
    Mr. Souder.--and that is why you have these management 
things, and if there is something that then in the source of 
good management practices, you say, hey, maybe this can be 
contracted out.
    On the other hand, the way this has been handled suggests 
that the bias should be for contracting out and the 
Administration's broader approach of which the Park Service is 
merely one part of an OMB larger effort, I think had a 
tremendously demoralizing effect and that we need to fight 
that.
    Let me be assured and the Park Service be assured, and we 
are going to watch this in the budget cycle this year, had 
Chairman Taylor's resolution not been buried in and Congressmen 
Davis and Sessions' amendment then be withdrawn, their 
amendment would have been pasted and that if Taylor hadn't had 
the overriding thing in the bill, there would have been an 
amendment to make sure there wasn't contracting out and it 
would have been a vote probably as dramatic or more dramatic 
than the one on Congressman Bereuter's research facility.
    It is important that we do good management practices, and I 
am not against good management practices and there needs to be 
more of that and more training, and that is why we have the 
institute down at IU and other places to train and there needs 
to be professionalization. At the same time, if it looks like 
our goal is to demoralize when there is only 44 percent of the 
whole Park Service is in the government already, that, I think, 
can be counterproductive.
    One last thing I wanted to make sure I understood on the 
record. You stated that you believe with the backlog that while 
there might be expansions of existing units, you didn't favor 
the creation of new units. That is the position of the 
Administration. Does that go for Heritage Areas, too, which is 
also a faster-growing category? You have, like, 30 studies 
there, lots of money, lots of Park Service responsibilities. 
Are you saying your position is no new Heritage Areas either?
    Ms. Mainella. Let me just speak to both. One, I just want 
to make sure that our language would be on even new parks, is 
that we just defer as we continue to address the efforts of 
making sure that we are taking care of the parks that we have.
    But as far as Heritage Areas, again, what we have been 
looking at and our most recent testimony has been asking for 
some help to look at some legislation possibly on Heritage 
Areas to make sure that as they come into the system, they are 
meeting the, I think the goals that all of us started with, and 
they are excellent. We believe in Heritage Areas. They are 
partnership-oriented. We believe in them.
    But we, I think, are working right now on legislation, 
working with some of you on some legislation to possibly help 
get Heritage Areas defined in a way that everyone can be very 
supportive of the direction of Heritage Areas.
    Mr. Souder. I believe there are 30 backlogged at $10 
million each plus the long-term staffing.
    Ms. Mainella. Right.
    Mr. Souder. It is one of the only--I mean, I vote for the 
Heritage Areas and I believe they need to be more confined, but 
that is a potentially explosive category here--
    Ms. Mainella. Big dollars.
    Mr. Souder.--more so than one or two new parks that we add 
to the system.
    Ms. Mainella. Right, and then I think that is why the 
Heritage Area monies were dropped in our 2005 budget, was 
primarily that we really need some help with some legislation 
to help us kind of move forward in a way that is manageable for 
all of us.
    Mr. Souder. Thank you very much. Thank you, Mr. Chairman.
    Mr. Radanovich. Thanks, Mark. With that, I think we are 
done.
    I will say one last thing. I need to ask unanimous consent 
to include in the written record questions from Congresswoman 
Cubin and Congressman Gibbons to Director Mainella and Director 
Clarke. Hearing no objection, so ordered.
    [NOTE: Responses to questions submitted for the record by 
the U.S. Department of the Interior have been retained in the 
Committee's official files.]
    And I want to thank Director Mainella--
    Ms. Mainella. Thank you.
    Mr. Radanovich.--Director Clarke, thank you for being here, 
and we do appreciate your comments on this issue.
    Ms. Clarke. Thank you.
    Mr. Radanovich. With that, the hearing is adjourned.
    Ms. Mainella. Thank you so much.
    Mr. Radanovich. You are welcome.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
